<html>
<title> - THE ADMINISTRATION'S WAR ON A MERIT BASED CIVIL SERVICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        THE ADMINISTRATION'S WAR
                     ON A MERIT BASED CIVIL SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________

                           Serial No. 116-26

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-661 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c3c230c2f393f382429203c622f232162">[email&#160;protected]</a>                                  
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                          Amy Stratton, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 
                                 
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Mark Meadows, North Carolina, 
    Columbia,                            Ranking Minority Member
John Sarbanes, Maryland              Thomas Massie, Kentucky
Jackie Speier, California            Jody Hice, Georgia
Brenda Lawrence, Michigan            Glenn Grothman, Wisconsin
Stacey Plaskett, Virgin Islands      James Comer, Kentucky
Ro Khanna, California                Ralph Norman, South Carolina
Stephen Lynch, Massachsetts          W. Steube, Florida
Jamie Raskin, Maryland
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
                                                                   
                                                                   
Hearing held on May 21, 2019.....................................     1

                               Witnesses

The Honorable Margaret Weichert, Deputy Director of Management, 
  Office of Management and Budget, Acting Director, Office of 
  Personnel Management
Oral Statement...................................................     6
Triana McNeil, Acting Director of Strategic Issues, Government 
  Accountability Office
Oral Statement...................................................     7
Norbert E. Vint, Acting Inspector General, Office of Personnel 
  Management Office of Inspector General
Oral Statement...................................................     9
J. David Cox, Sr., National President, American Federation of 
  Government Employees
Oral Statement...................................................    35
Ken Thomas, National President, National Active and Retired 
  Federal Employees
Oral Statement...................................................    37
Linda M. Springer, Former Director, Office of Personnel 
  Management
Oral Statement...................................................    38

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: https://docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  https://docs.house.gov.

  * SEA Statement for the Record; submitted by Subcommittee 
  Chairman Connolly.

  * CREW Statement for the Record; submitted by Subcommittee 
  Chairman Connolly.

  * AFGE Correction for the Record.

  * NARFE Correction for the Record.

  * QFR: AFGE Response to Chairman Connolly.

  * QFR: AFGE Response to Rep. Meadows.

  * QFR: NARFE Response to Chairman Connolly.

  * QFR: OPM Response to Chairman Connolly.

  * Rep. Meadows' Statement for the Record.

 
                        THE ADMINISTRATION'S WAR
                     ON A MERIT BASED CIVIL SERVICE

                              ----------                              


                         Tuesday, May 21, 2019

                   House of Representatives
      Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
room 2154, Rayburn House Office Building, Hon. Gerald E. 
Connolly (chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Norton, Sarbanes, 
Khanna, Raskin, Cummings, Meadows, Hice, Grothman, and Jordan.
    Also present: Representatives Beyer and Wexton.
    Mr. Connolly. The subcommittee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    The Subcommittee on Government Operations is convening 
today to hold this hearing on the administration's proposals on 
a merit-based Civil Service.
    Before I give my opening statement, I want to call upon the 
distinguished ranking member--excuse me--the distinguished 
chairman of the full committee, Mr. Cummings--still getting 
used to this new change in status--for any opening statement he 
may have.
    Mr. Cummings. Thank you very much.
    Mr. Connolly. Welcome, Chairman Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I really 
appreciate being here, and I appreciate the fact that we are 
holding this subcommittee hearing today.
    I think all of us who work on a daily basis with Federal 
employees and have a lot of Federal employees in our district, 
as I do, are concerned about these moves that the 
administration is making.
    I've told Ms. Weichert that one of the things that I've 
been always concerned about is people having career 
opportunities. There's one thing that will allow any community 
to thrive, and that's jobs. People need jobs. And when I see 
what's happening here, the administration's efforts with regard 
to OPM, I'm wondering who we're talking to, who are we getting 
our advice from, and have we truly made a case for the changes 
that you're trying to make, and if you are going to make 
changes, that you have the money to do it. It's one thing to 
have good intentions. It's another thing to not have the 
resources to get it done.
    And as a side note, I am always concerned about the way 
Federal employees have been treated. They are the ones that, 
when we want to balance the budget or look for some extra 
money, we go to them. They have been furloughed, they have been 
placed in many positions where they were paying more into a 
pension and getting less in the end, working hard and called 
everything but a child of God.
    And so I want to make sure that, whatever we do, that we 
examine this process very carefully. It's not just getting to 
the goal. It's the process of getting there. And I'm hoping 
that we will have a thorough hearing where we can really get to 
the bottom line of exactly why this is being done, how it's 
being done, who is being affected, and looking at a long-range 
view of whether this allows us to have a robust work force, 
because we know that people are getting older and we are losing 
people quite a bit.
    But I also--last but not least--I do want to do this. I 
want to commend Chairman Connolly for today's hearing. He has 
always been one who has consistently been at the forefront of 
making sure that our Federal employees are protected. He's 
stood up over and over and over again, sometimes unseen, 
unnoticed, unappreciated, and unapplauded.
    But I want to thank you for not only that, but for all of 
the things that you've done.
    You know, we have these subcommittees, and this has got to 
be the toughest one and the one that has the most work. And 
there he was, volunteering, saying that he wanted to take it on 
because dealing with these issues actually feed his soul.
    Mr. Meadows. Mr. Chairman, that wasn't because of me being 
here?
    Mr. Cummings. Probably so. Probably partly.
    But with that, Mr. Chairman, I thank you. And I want to 
thank the ranking member, too. Again, I think it's a good match 
here, because our ranking member has been one who has always 
sat down with us and tried to work things out. Although we may 
disagree on some things, we are never disagreeable. And so I 
want to thank the ranking member also.
    And with that, I'll yield back, Mr. Chairman.
    Mr. Connolly. I thank the distinguished chairman of the 
full committee, and I thank him for his gracious words. And 
hopefully Mr. Meadows and I can live up to the expectations--
the high expectations--you've set for the whole committee. 
Thank you, Mr. Cummings.
    The chair now recognizes himself for an opening statement.
    The Federal Government's most essential resource is its 2.6 
million employees who comprise the most professional, non 
partisan civil service in the world. Developing and enforcing 
the policies that protect them from political interference has 
been the task of an independent agency called the Office of 
Personnel Management.
    OPM administers the largest employer-sponsored health 
insurance program in the world and processes retirement 
benefits for 2.5 million Federal retirees and survivors. It 
vets and trains candidates for some of our Nation's most 
important Civil Service positions. OPM is the agency that 
serves the people who serve the American people.
    Today's hearing is about the administration's proposal to 
all but abolish OPM. This hearing is about the administration's 
plan to eliminate the independence of the Civil Service. The 
administration wants to take over the merit policymaking 
functions and put them into the highly politicized environment 
of the White House itself, away from direct congressional 
oversight and inspector general review.
    It's clear that this was decided a priority, to undermine 
the Civil Service protections apparently, and was developed, 
this reorganization proposal, to obscure its actual objective.
    This hearing is about that plan, to reverse more than 136 
years of reforms implemented to professionalize the Civil 
Service and insulate it from partisan political activity and 
influence.
    This hearing is also about how the administration seems to 
have hidden its plans and intentions from Congress until this 
last week.
    So today is a reckoning. Much is at stake.
    OPM was created to make the rules that define what 
constitutes a prohibited political activity by a Federal 
employee. Do we, as a Nation, want to change that? Do we want 
any President to determine what constitutes political 
activities for our Federal employees?
    OPM crafts the rules that protect Federal employees from 
racial, political, or religious discrimination. Do we want any 
President interfering with those rules that protect employees 
from discriminatory practices?
    OPM regulates the standards by which Federal job candidates 
are assessed, like skill level, experience, and fitness for the 
position. Do we want any President to make the rules that 
govern merit and skill?
    OPM's roots run through the Civil Service Reform Act of 
1978, all the way back to the assassination of President 
Garfield and the creation of the Pendleton Act back in 1883. 
OPM is the grandchild of those reforms that tried to overturn a 
corrupt patronage system from that era.
    The independence of OPM and the merit-based Civil Service 
system of today are the legacies of American reformers, and 
their institutions are just as relevant today as they were when 
they were created. The administration's proposal seems to 
ignore history and would undo many of those carefully evolved 
reforms.
    The administration's proposal was developed without input 
from key stakeholders, including Congress, Federal employees, 
Federal annuitants, and the private sector. Without any notice 
from agency leaders, OPM employees woke up to a budget request 
that eliminated their agency and perhaps their jobs, starting 
October 1. This proposal was released without any data or 
evidence to support its goals. It's a reckless end game in 
search of a rationale.
    We know this because OPM Director Weichert, who's here with 
us today, continued to push back our hearing date to provide 
time for the administration to generate justifications for this 
ill-conceived plan. Although the Director originally agreed to 
testify before the subcommittee on May 1, that agreement was 
rescinded to push for a later date. Headquarters staff 
repeatedly refused to provide documentation to demonstrate even 
a minimal amount of due diligence in developing and executing a 
massive change to our Federal Government operations. They 
ignored essential management practices and have already done 
damage, I think, to our Federal work force.
    This isn't even building the plane while flying it. This is 
landing without landing gear and hoping no one sees the sparks. 
This proposal, in my view, is shortsighted, inadequate, and 
uncompelling.
    Nearly a year after the administration issued its 
government-wide reorganization plan, such as it was, which 
included the plan to dismantle OPM, the administration has not 
provided this committee with a clear and convincing reason for 
dismantling this key Federal agency.
    For example, the administration has not provided even basic 
information such as a compelling reason why eliminating OPM is 
necessary; a clear plan and timeline for the desired changes; a 
report on the alternative plans considered and why they were 
rejected if they were--considered, that is; a legal analysis of 
the authorities they have and those they will need to make 
their preferred changes; a cost-benefit analysis of this plan; 
an analysis of how such a move would affect Federal employees, 
including possible reductions in force; a risk assessment and 
contingency plan should they not get the authorities they need; 
a timeline of how and when they engage key stakeholders 
throughout the process; and a detailed plan for how they will 
protect the huge amount of incredibly sensitive data and 
information currently curated at the OPM.
    We've not seen anything from this administration to 
convince us that any part of this plan is a good idea and would 
make our Federal Government more effective and efficient.
    We're not here to pretend OPM is perfect. It's not. In 
fact, Mr. Meadows and I were on this committee when we had 
extensive hearings about the data breach that revealed 
imperfections, to say the least, at OPM. OPM's inspector 
general has found that the agency struggles with data 
security--that's an understatement--claims processing, and 
information security governance.
    The Government Accountability Office has identified 18 
priority recommendations to improve the agency, including 
improving data quality, improving the antiquated Federal job 
classification system, and strengthening controls over 
information technology systems.
    This hearing is not a partisan attack. In fact, it's going 
to be very bipartisan.
    I will say this. I had the privilege of meeting Acting 
Director Weichert yesterday, and I'm certainly convinced of her 
sincerity. I don't think she has some hidden agenda. We, I 
think, disagree on the analysis and on the proposed solution, 
and hopefully yesterday's meeting and this hearing is the 
beginning of a dialog.
    But our concerns are very real. This hearing, I hope, will 
be a wake-up call. Our Federal work force is our greatest 
asset. Improving OPM ought to be a bipartisan goal, but 
revitalizing OPM requires careful planning and a clear 
understanding of its problems.
    Successful government transformations often take long-term, 
and they take consistent and transparent stakeholder 
engagement, something that's been lacking so far, quality data 
and metrics, and performance milestones. The administration has 
taken, unfortunately, none of these basic steps.
    I look forward to this hearing to see how we can work 
across the aisle to improve the situation and to look at the 
alternatives available to us.
    And with that, I call upon the ranking member for his 
opening statement.
    Mr. Meadows. Thank you, Mr. Chairman.
    And just because they're going to be calling votes, I'm 
going to just submit my written statement and opening remarks 
for the record, and just say, Ms. Weichert, thank you for being 
here. Obviously, I appreciate your work.
    Ms. McNeil, thank you. This is not your first rodeo for 
either one of you, and welcome back.
    Mr. Vint, it's nice to meet you.
    I will say this. There are two things that I want to 
highlight. One is, it's to quote the chairman of the full 
committee: It's important that we are effective and efficient. 
And I think the chairman has consistently said that. And so all 
of this needs to be looked at in terms of being effective and 
efficient.
    This also, reorganization, shouldn't be seen as a way to 
downsize the Federal employee footprint. Ms. Weichert, you've 
stressed to me that that's not the case, but I think our 
Federal workers, if they're tuning in, I want them to hear 
that, that this is not an end run to make sure that we can 
downsize and eliminate something. So it's about that 
efficiency.
    But the other is, I would join the chairman, he's requested 
some documents in terms of legal authority, what part could be 
done administratively, what part needs to be legislatively, and 
I join him in asking and making sure that those documents are 
made available to this subcommittee so that we can make 
informed decisions.
    And with that, Mr. Chairman, I'll yield back.
    Mr. Connolly. I thank the distinguished ranking member and 
thank him for his commitment to our Federal employees.
    Today we welcome the testimony of our first panel of 
witnesses. Obviously, the first is the Honorable Margaret 
Weichert. Ms. Weichert is the Deputy Director of Management, 
Office of Management and Budget, and the Acting Director of the 
Office of Personnel Management. Triana McNeil is the Acting 
Director of Strategic Issues at the Government Accountability 
Office. And Norbert Vint is the Acting Inspector General, 
Office of Personnel Management, Office of the Inspector 
General.
    We have a lot of ``actings'' in this environment.
    It is our tradition to swear in all witnesses. If the three 
of you would rise and raise your right hand.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you. You may be seated.
    Let the record show that the witnesses answered in the 
affirmative.
    The microphones are sensitive, so I'd ask everybody to 
speak directly into them and press the button to make sure 
they're on when it's your turn.
    Without objection, your full written statement will be made 
part of the record.
    We are against the clock. They're going to call votes. 
There are only two votes, so it won't take too much time. And 
Ms. Norton has graciously agreed to take the chair when those 
votes are called so that Mr. Meadows and I may go vote. We'll 
come back right away. So we'll try not to interrupt the hearing 
and impose any further on your time. Thank you for your 
understanding.
    Ms. Weichert.

STATEMENT OF MARGARET WEICHERT, DEPUTY DIRECTOR OF MANAGEMENT, 
  OFFICE OF MANAGEMENT AND BUDGET, ACTING DIRECTOR, OFFICE OF 
                      PERSONNEL MANAGEMENT

    Ms. Weichert. Chairman Connolly, Ranking Member Meadows, 
and subcommittee members, thank you for the opportunity to 
discuss the administration's plan to modernize OPM and better 
support the Federal work force and merit systems principles.
    Recently, during Public Service Recognition Week, we 
honored millions of dedicated government employees who keep our 
country safe, protect our values, and provide critical support 
for all Americans. These committed civil servants always focus 
on serving the American people, even as their work changes, 
responding to mission needs and technology innovation.
    It is vitally important that our human resources 
organization, OPM, also evolves. President Theodore Roosevelt, 
the father of the modern Civil Service, summed up the 
challenges of maintaining merit systems principles by saying: 
Success of the merit system depends upon the effectiveness of 
the rules and the machinery provided for their enforcement.
    Unfortunately, our H.R. machinery is not structured to keep 
pace with change. Over the last 40 years, well-intentioned 
regulations have multiplied, tying the Federal personnel system 
into bureaucratic knots.
    At the same time, failure to invest in and realign H.R. 
organization, technology, and operations has generated 
backlogs, service quality issues, cyber risks, and problems 
hiring and retaining top talent.
    The result is a national personnel system that does not 
meet modern work force needs.
    The Government Accountability Office warns of chronic work 
force risks, but OPM is so mired in transactional H.R. 
activity, it cannot respond to strategic risks.
    The need for H.R. modernization is underscored by employee 
views as well. More than 90 percent of surveyed Feds believe in 
the importance of their work, but these same employees report 
deep dissatisfaction with merit-based aspects of Federal 
service. More than 60 percent of Feds are dissatisfied with how 
we reward performance, manage poor performers, and manage 
merit-based promotions. Federal employees believe we are 
failing to deliver on merit principles. And so fundamental 
structural reform is needed.
    Reform starts at the Office of Personnel Management. 
Originally designed to drive work force policy and protect 
merit principles, today fewer than five percent of OPM's 
employees work on core merit systems principles and policy, as 
policy head count has been crowded out over the years by 
competing priorities and structural funding issues.
    OPM supports $2.4 trillion in its balance sheet covering 
retirement, healthcare, and insurance liabilities, but is 
supported by fewer than 6,000 employees, more than half of whom 
work on background investigations. Companies like Fidelity 
Investments with comparable balance sheets have 50,000 
employees, many in IT. Notably, only 281 OPM employees do core 
merit systems policy work, and currently fewer than 200 Feds 
are dedicated to the technology that supports this massive 
balance sheet.
    The OPM organization was designed before online technology 
tools transformed H.R. services. Not surprisingly, OPM was 
structured to support bureaucratically intensive, often manual 
solutions to problems the private sector now solves with 
technology. Existing OPM silos further complicate our ability 
to realign resources or invest in data analytics and 
technology.
    In this environment, it is impossible for OPM to address 
strategic human-capital issues that are central to the 
President's management agenda, critical issues like re-
skilling, agile work force development, and mobility. Instead, 
hard-working OPM employees face the daunting task of delivering 
21st century H.R. solutions with 20th century technology and 
tools.
    This task became even harder once Congress transferred the 
National Background Investigations Bureau to the Department of 
Defense, moving with it thousands of employees and more than a 
billion dollars in funding.
    Bold reform is needed to avert a work force management 
crisis. Our proposed solution is the merger of OPM and GSA. 
This idea is not new. Past administrations have considered 
similar proposals, and many state governments already combine 
support services in a single agency.
    My own parents worked for such an agency, the New York 
State Office of General Services. Mom worked on the people side 
and dad worked on the procurement side of that agency. Many 
other states have integrated service organizations that 
enhance, rather than detract, from merit systems principles.
    Ultimately, the goal of this transition is to stabilize and 
sustain OPM's mission, which is fundamentally already at risk. 
The status quo organizational construct is at the heart of this 
risk. So I welcome your ideas to avert this crisis facing OPM.
    Thank you, and I look forward to your questions.
    Mr. Connolly. Thank you, Acting Director Weichert.
    Ms. McNeil.

   STATEMENT OF TRIANA MCNEIL, ACTING DIRECTOR OF STRATEGIC 
            ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. McNeil. Chairman Connolly, Ranking Member Meadows, and 
members of the subcommittee, I am pleased to be here today to 
discuss GAO's ongoing work on the transfer of functions from 
OPM to GSA and the Executive Office of the President.
    GAO has done a lot of work looking at mergers and 
transformations and has identified a number of key practices 
that are applicable to this reform, and if properly applied, 
could help it be successful. This is particularly important 
because GAO continues to designate strategic human-capital 
management as a high-risk area.
    The preliminary findings from our ongoing work are not 
encouraging. The information I'm about to share is based off of 
analysis we started when the reform plan was issued last July 
through last week. We recognize the administration has provided 
a number of documents in the past few days, and we will be sure 
to update our findings based on our ongoing analysis of the new 
information.
    Our work focuses on two main questions. One, to what extent 
have OMB, OPM, and GSA addressed key practices for effective 
reforms and reorganizations?
    Our answer in short is, based on the evidence we have 
assessed, they have generally not followed key practices. They 
have not established outcome-oriented goals, developed and 
communicated a cost-benefit analysis or implementation plans, 
and have not fully involved or communicated their efforts with 
the Congress, employees, and other key stakeholders.
    OPM and GSA also have not shown how they will address 
management challenges that may affect their ability to 
successfully reorganize the government's central human capital 
functions.
    Our second researchable question is focused on legal 
authorities, specifically, which ones may affect the 
reorganization. Again, based on the evidence we have assessed, 
OPM and GSA have not identified specific actions that can be 
taken administratively versus those that will require 
legislative action to reorganize OPM.
    The administration has acknowledged the need for additional 
statutory authority to execute certain transfers of functions 
from OPM to GSA and the Executive Offices of the President. But 
also, they have stated that they will rely on existing 
authority to move certain functions administratively.
    Without additional information from OMB and agencies, GAO 
cannot assess the legal authorities the administration is 
relying on to implement the reorganization.
    Central to a successful reform is transparency and 
engagement with stakeholders. Questions like, what does success 
look like, what management challenges will the reform resolve, 
how have Congress, employees, and other key stakeholders 
participated in the solution--these are basic questions that 
GAO would have expected to be answered by this time. As of now, 
GAO has little to no evidence from the agencies to answer any 
of these.
    The administration has in the past few days released more 
details on the reform. This is a step in the right direction. 
GAO will examine the newly released documents. We also 
appreciate the recent opportunity to discuss our ongoing work 
with agency officials and we look forward to more discussions 
and additional documentation moving forward.
    One final point, but an important one. Regardless of the 
decision made about the organizational arrangement, it will be 
important to retain the capacity to execute certain 
governmentwide strategic human capital functions. These 
capacities includes an ability to identify future work force 
trends and to effectively collaborate with stakeholders for the 
purpose of creating, executing, and overseeing human capital 
policies and programs, enforcing Civil Service laws and 
regulations.
    Chairman Connolly, Ranking Member Meadows, and subcommittee 
members, this concludes my prepared statement.
    Mr. Connolly. Thank you so much, Ms. McNeil.
    Mr. Vint.

STATEMENT OF NORBERT E. VINT, ACTING INSPECTOR GENERAL, OFFICE 
    OF PERSONNEL MANAGEMENT, OFFICE OF THE INSPECTOR GENERAL

    Mr. Vint. Good afternoon, Chairman Connolly, Ranking Member 
Meadows, and members of the subcommittee.
    Mr. Connolly. Mr. Vint, if I can just interrupt and freeze 
your time.
    Can someone freeze that time or start over?
    Don't be insulted that Mr. Meadows and I are going to slip 
out, because the vote has been called. We've got two votes. 
We'll come back as soon as we can. But Ms. Norton, being the 
great American she is, has agreed to continue chairing the 
hearing, and we will catch up with your testimony.
    Mr. Meadows. And don't worry, because the staff probably 
takes better notes than we do.
    Mr. Vint. Yes, sir. I know that with my staff.
    Mr. Meadows. You're not supposed to agree so quickly.
    Mr. Connolly. Yes, that was the wrong response.
    Mr. Vint. Oh, okay.
    Mr. Connolly. Thank you. Thank you, Mr. Vint.
    Mr. Vint. Yes, sir, thank you.
    Again, good afternoon, Chairman Connolly, Ranking Member 
Meadows, and members of the subcommittee. Thank you for 
inviting me to speak today about the administration's proposed 
reorganization of the U.S. Office of Personnel Management.
    Specifically, I will be speaking about the transfer of the 
background investigations function to the U.S. Department of 
Defense and the proposed transfer of other OPM activities to 
the U.S. General Services Administration.
    I would like to begin by acknowledging that OPM is facing 
many daunting challenges, including the need to modernize 
several legacy IT systems and the $70 million deficit in OPM's 
operating budget created by the transfer of the National 
Background Investigations Bureau, NBIB, to DOD.
    I appreciate Acting Director Weichert's dedication to 
advancing OPM's mission while tackling these problems. As 
agency leadership works to solve OPM's many challenges, it is 
crucial they engage in the careful planning and fact-based 
decision-making recommended by GAO if any effort at reform is 
to succeed.
    In my written testimony, I provide a brief overview of how 
the NBIB transfer evolved. At this time, our office does not 
have any specific concerns to raise. We look forward to 
reviewing the June 24 transition plan, and if we have any 
concerns at that time, we will issue a management advisory.
    I would like to spend the majority of my testimony 
discussing a potential transfer of other OPM functions to GSA. 
To begin, I'd like to note that there's a distinct difference 
between the transition of NBIB to DOD and the proposed transfer 
of other OPM offices to GSA. The decision to transfer NBIB was 
made by Congress, and OPM's role was to determine how it could 
most efficiently execute that directive.
    In contrast, the proposal to transfer OPM functions to GSA 
originated entirely within the executive branch. As such, OPM 
needs to demonstrate to Congress and the American taxpayers 
that such a transfer is a well-reasoned policy change that will 
result in more efficient and effective government operations. I 
am not sure that OPM has met its burden in this regard, and the 
OIG has serious concerns regarding the potential transfer of 
functions to GSA.
    There are two specific concerns that I would like to bring 
to the subcommittee's attention this afternoon.
    First, to date, we have not received documentation 
demonstrating that OPM leadership meaningfully examined other 
alternatives to address OPM's challenges besides the transfer 
of functions to GSA.
    We cannot know if the proposed transfer to GSA is the most 
cost-efficient and effective option if no other options are 
evaluated. In fact, we do not know if the transfer of functions 
to GSA would be cost efficient, effective, at all. Based on our 
current information, we are concerned that the agency is making 
decisions to align with a predetermined desired outcome without 
conducting adequate evidence-based analysis.
    Second, we are concerned that ongoing planning for this 
transfer is being conducted without adequate data. We have not 
seen a real financial analysis regarding the costs of the 
transfer or any potential savings that might result.
    For example, the limited cost-benefit analysis information 
we have received fails to take into account any transition 
costs that are supported by data and analysis.
    In addition, we have not seen work force planning data 
showing how GSA would absorb these OPM program offices.
    Finally, we have not seen a definitive legal opinion 
concluding that OPM and GSA have adequate legal authorities to 
achieve this proposed transfer absent legislation. This lack of 
documentation makes it impossible for the OIG to assess whether 
the proposed transfer to GSA will promote or improve economy, 
efficiency, and effectiveness in the administration of OPM 
programs.
    We understand OPM leadership is eager to address the 
pressing challenges that face the agency, and they have 
developed an aggressive vision for OPM. However, for any 
solution to be successful it must be accompanied by careful, 
methodical planning based on solid financial and work force 
data. If it is not, we fear any attempt to address these 
challenges will fail, which could waste taxpayer dollars, 
possibly disrupt the administration of benefit programs relied 
upon by Federal employees, annuitants and their families, and 
potentially undermine the Civil Service.
    I look forward to answering any questions you may have. 
Thank you.
    Ms. Norton.
    [Presiding.] Thank you for your testimony, Mr. Vint.
    For the record, a vote is taking place on the House floor. 
I have the vote on the House floor on the Committee of the 
Whole.
    Not until the District of Columbia, which pays more Federal 
taxes per capita than any Americans, gets its full vote--and 
we're just short of those votes--will I be able to vote on the 
matter that is now on the House floor. Then this committee will 
not have the efficiency of leaving me in charge while everybody 
else goes to vote.
    The committee is in recess.
    [Recess.]
    Mr. Connolly. The committee will reconvene (off mic) with 
our schedule. The votes are now completed. I'm going to begin 
my five-minute round of questioning.
    Among the most troubling parts of this proposed merger is 
placing all regulatory authority on Civil Service policy 
decisions for the Federal Government inside the Executive 
Office of the President, specifically, the Office of Management 
and Budget.
    Currently, Congress has direct oversight of and access to 
the policy work of OPM. Moving these operations to OMB would 
impede that oversight and make it much more difficult for 
Congress to acquire accountability and to require the presence 
of OPM officials before this and other oversight bodies.
    Ms. McNeil, you, GAO, looked at this reorganization. Was 
that an aspect of the reorganization that struck you? And if 
so, what views do you have on that?
    Ms. McNeil. We reviewed the new legislation that came out 
last week. We have preliminary thoughts on that. These are not 
final views.
    We do want to note, there's no additional information on 
goals and measures. It doesn't have any information on cost-
benefit analysis. There's question about potential overlap 
between the new office at OMB and GSA. And we also do have a 
question about accountability of the new OMB office head.
    And so the fact that it would be a Presidential 
appointment, not a Senate-confirm, does concern us. We will be 
asking questions to get some clarity on that. We need 
additional details on how that would look.
    Mr. Connolly. Thank you.
    Ms. Weichert, what is the rationale for that proposed move?
    Ms. Weichert. So one of the things that is maybe not clear 
to everyone who thinks about OPM as the people agency is that 
OPM's policy mission is heavily focused on Title 5, which 
represents a large portion of the Federal work force but 
doesn't represent the entire work force. And it is very 
difficult to do all-of-government strategic human capital 
decisioning and kind of future strategic work when you're 
limited.
    And so the overall proposal, which was not to move all 
policy activities into the EOP, but the proposal is actually--
and the budget proposal that was released earlier this year 
made it clear--was adding three additional heads to the office 
that has looked at performance and personnel management in the 
past, with a specific focus on strategic human capital issues, 
notably reskilling, performance management, and end-to-end 
hiring.
    And the model that we used for the proposal is the Office 
of Federal Procurement Policy, which also fits in the 
management side of OMB. And that office is a small office, has 
the rulemaking authority, but most of that rulemaking authority 
is actually delegated to the three agencies who have specific 
Federal Acquisition Regulation responsibilities.
    So GSA, DOD, and NASA have actually the balance of the 
people doing policy on Federal Acquisition Regulations, and so 
the model we had was that you would have leadership and 
strategic thought in OMB.
    Mr. Connolly. Unfortunately, we're on a five-minute rule.
    Ms. Weichert. Sorry about that.
    Mr. Connolly. That's okay.
    So who would the Director of OPM report to? And where would 
he or she sit?
    Ms. Weichert. So the vision is that the Director of OPM 
would be part of the GSA organization.
    Mr. Connolly. So he or she would report to the head of GSA?
    Ms. Weichert. Yes. GSA would be the merged entity.
    Mr. Connolly. Yes.
    Ms. Weichert. And so the moniker would probably need to 
incorporate human capital.
    Mr. Connolly. So can you state for us, to your knowledge, 
what is the expertise of GSA as an agency? What is its mission?
    Ms. Weichert. So GSA has a range of capabilities that I 
think are relevant, but general services is one of them. And I 
think it's one of the only places in government where their 
core focus is to serve other agencies and their needs first. 
They have a range of authorities that allow them to make 
investments in----
    Mr. Connolly. But does GSA have some domain expertise in 
human resources or personnel matters that makes it the likely 
candidate for this merger?
    Ms. Weichert. No, it does not. What it does have is 
experience in dealing with all-of-government challenges----
    Mr. Connolly. Yes.
    Ms. Weichert [continuing]. of service delivery, operations, 
and transaction management.
    Mr. Connolly. But wearing the hat you've got, and knowing 
of your sensibilities in this regard, surely you can understand 
the angst created among Federal employees that this would be 
tantamount to a downgrading, not only of the position of OPM 
Director and the absorbing of OPM's responsibilities with 
respect to them in an agency whose primary role in life is 
managing Federal leases and buildings, and in the process 
downgrading their interests and their needs, too, with no 
guarantee that somehow service to them would be better.
    So, I mean, we already have problems, all the time. You and 
I talked about this yesterday. I get, representing as many 
Federal employees as I do, when something goes wrong with 
someone's retirement papers, when somebody has trouble signing 
up for the FEHBP, the Federal health benefit program.
    But I'm not sure you've done anything in this proposal to 
reassure those same Federal employees it actually gets better 
by doing this, by moving into the unknown, with an agency that 
does not have domain expertise.
    Ms. Weichert. So I definitely--to the first part of your 
question--I understand the concern, and if I had anything I 
would do over, it would be the moniker that we would 
technically call the merged entity. We chose Government 
Services Agency both because there are other state agencies 
that use that name and we thought we'd save money by keeping 
the same initials.
    You know, if I had one do-over, I would put a placeholder 
name that would have something about human capital in there to 
signal it really is about a merger and it's about putting the 
transaction activities on the same footing and the same 
professionalism as other activities we have in government, like 
procurement.
    Mr. Connolly. I would just--yes. That may be your intent. I 
just don't think a case has been made for that. I mean, I think 
the documentation has not been provided. The rationale has not 
been provided. The communication has not been provided. And for 
good or ill, not you personally, but you, the agency, are now a 
victim of that, because there's no confidence going forward. 
And I think that's why, frankly, I think you ought to look at a 
reset.
    But let me just end, because I'm over my time, but if I 
may, two quick questions, I think, about--from your rationale.
    One was you talked about a large balance sheet. I think you 
set it at $2.4 trillion dollars. And you said it's too big for 
such a small agency. But isn't it true that actually Treasury 
manages that portfolio and you administer the programs and the 
policy, but not necessarily the portfolio itself?
    And then second--I'll get them both in--second, the 
rationale has been used that given the FITARA score, the low 
score for OPM, doesn't it make sense to move to an agency with 
a high score?
    And the problem I have with that logic is, well, the lowest 
score of any Federal agency is the Pentagon. And if we are 
going to follow the logic that when you get a low score we're 
going to blow you apart and redistribute your parts, then why 
not get rid of the Pentagon and we'll divvy it up to Ben Carson 
and Betsy DeVos? Because they look like they know what they're 
doing. They have got some good scores.
    And so, I wonder if you could just address quickly those 
two rationales that don't seem to make sense.
    Ms. Weichert. Okay.
    So the first one, I have an actual chart, chart 1, that 
looks at the overall size of our total liability. So $2 
trillion in the balance sheet. No, we don't manage the actual 
funds.
    Mr. Connolly. Treasury does.
    Ms. Weichert. Treasury does. What we actually manage, 
though, is service delivery. So we manage the transactions.
    So the actual number of people at a retirement management 
company like, let's say, Fidelity, there's, I don't know, 50 
people probably associated with managing the dollars 
themselves. But most of the people in a company like Fidelity 
are doing transactional support. They're supporting the 
technology that does that. They're supporting customer service.
    And we have this balance sheet that is comparable in size 
to Fidelity Investments, and they have 50,000 employees, and we 
have 6,000, only about a thousand of whom support this 
particular transaction business.
    Now, you could do it with fewer people if it was largely 
delivered through technology. But the technology under 
retirement is among the oldest we've got. So that's the first 
thing.
    I think it's interesting. DOD has upped their score, so now 
they compete with OPM at a D-minus on the FITARA scorecard. But 
the thing that is fundamentally different is we're not just 
failing in technology. We're failing already in delivering 
against core merit principles, those Federal Employee Viewpoint 
Survey scores I talked about. The four lowest scores 
perennially, every year, on the Fed survey are scores related 
directly to merit systems principles. That's not okay.
    So I have to admit, I start with all the documentation that 
was already in the public domain, including extensive 
documentation from this committee, from GAO, from our IGs over 
the last 18 years, and to me that case for change is self-
evident.
    So I will totally take the mea culpa that I haven't done a 
good enough job articulating what to me is the handwriting on 
the wall, that this entity is not only failing in technology, 
it's failing at its core mission. Not because the people are 
not wanting to do it. Administration after administration have 
tried to address these challenges.
    And I see it every day. When I go in and I see my 
employees, some of whom are here today representing our 
bargaining unit, they're dealing with old laptops, they're 
dealing with impossible scenarios, trying to serve Americans 
who just want their retirement benefits. And the levels they 
have to go to are unacceptable.
    Mr. Connolly. Thank you so much. And I must say, your 
candor is refreshing. Thank you for that. I think it makes 
everything easier.
    The chair now recognizes the ranking member for his 
questions.
    Mr. Meadows. Thank you, Mr. Chairman.
    Ms. McNeil, I'm going to come to you, because I have been 
consistent in at least one thing, and that consistency has been 
my reliance on GAO, regardless of which administration is in 
power, and it's to try to make sure that we get the facts. And 
you're not Jack Webb, but you're the closest thing that I have 
to it, and so I need the facts.
    And I guess your initial response today was very concerning 
because I could tell it was a very sober response that you had.
    Has any Member of Congress requested from you a GAO report 
that would look at consolidation of some of these entities?
    So, obviously, you're looking at it as it relates to the 
reorganization plan. But I guess what I'm looking for is more 
not what they're not doing, because I think you articulated 
that very well. But has someone said, all right, if you're 
going to consolidate, for example, how many agencies are using 
shared services? At what point do we look at does GSA do this 
better? Does DOD?
    Have you been asked to look at that in terms of how we 
become more efficient and effective?
    Ms. McNeil. No, not that I'm aware.
    Mr. Meadows. All right. You'll have that very soon.
    Ms. McNeil. Okay.
    Mr. Meadows. Because I think that's a critical point. I 
know that consistently, because of my work over the last six or 
seven years on Government Operations, this particular thing is 
not new. You know, I see, it looks like flow charts or all 
kinds of talking points in front of Ms. Weichert.
    It's obvious that you have studied this. And yet we're here 
today with one person giving testimony about an implementation 
plan and another giving testimony that is 180 degrees apart, 
when I think both of your goals, are they not, that we make our 
Federal work force efficient and give them the tools that they 
need? Is that correct?
    Ms. Weichert. Yep.
    Ms. McNeil. That would be correct.
    Mr. Meadows. Let the record reflect both of them answered 
in the affirmative.
    And so if we're looking at this, one of the critical things 
that I'm concerned about--and I mentioned shared services, but 
it's one part of this--we spend over a hundred billion dollars 
a year in IT. One of the Achilles' heel for OPM certainly has 
been IT. But we spend a hundred billion dollars a year, and yet 
I can tell you the IT ability of the Federal work force is less 
than what I had in the private sector with not near the budget, 
let's put it that way.
    And so is there a way that we can start to look at some of 
those shared services where, on a pilot program, where the 
chairman and I work together and say, okay, we're going to take 
these entities and start looking at how we can become more 
efficient, where perhaps they contract with GSA or OPM or DOE?
    It's interesting, today, I believe, is your duplication of 
services report? Didn't it come out today?
    Ms. McNeil. Yes, it did.
    Mr. Meadows. Okay. And so I look forward to going through 
that.
    There's a good place to start. Would you not agree, Ms. 
McNeil?
    Ms. McNeil. Definitely.
    Mr. Meadows. I mean, there are areas where we're doing 
exactly the same thing, and yet you have different agencies 
that would both say they can do it better.
    Ms. McNeil. Uh-huh.
    Mr. Meadows. Isn't that what happens, is they provide a 
similar or relatively similar service, and yet there's not the 
efficiency of one?
    Ms. Weichert, is that what you're trying to get to, is 
making sure that we have streamlined decisionmakings, not just 
at OPM?
    Ms. Weichert. Absolutely. And, in fact, maybe I haven't 
said it enough because it was self-evident to me, but the 
reason we need to do this is that all of this technology debt 
and operational overhead and manual processing has strangled 
the core merit systems principles the agency was founded 
around, to the point where it can't deliver those.
    Mr. Meadows. And so let me go on record once again, because 
I don't know if it was with you, Ms. Weichert, but it may have 
been with one of your associates, where we have talked in the 
past about changing the survey, where we take the survey of 
Federal work forces and change.
    That dog will not hunt, I'm just telling you. I want the 
same standard when we're asking questions. I think the chairman 
and I agree on this. We don't want to change the standard and 
all of a sudden have a different question asked.
    Because those Federal workers are right. I don't know that 
this consolidation will actually change some of that 
frustration. It may be a step in the right direction. But 
really it's all about making sure we reward the people that do 
the best job and that we hold those accountable, the small 
percentage accountable, that are not. So let me go on a little 
bit further with your indulgence.
    Ms. McNeil, I guess the concern that I have--and I think 
Ms. Weichert knows that I'm not in favor of moving security 
clearances to DOD. I mean, I know that doesn't come as a 
surprise. I should not play poker because I guess I let people 
know how I feel.
    Do you have any----
    Mr. Connolly. Don't sell yourself short, Mr. Meadows.
    Mr. Meadows. Do you have any documentation that would 
indicate that doing security clearance work at DOD is a better 
move than where it is at OPM? Are there any studies?
    Ms. McNeil. There has been work done by GAO and the folks 
that do that work. We can definitely connect them with your 
staff.
    Mr. Meadows. Do you know why it was moved from DOD to OPM 
originally?
    Ms. McNeil. I would rely on the experts to answer that 
question.
    Mr. Meadows. I'll give you a softball answer to that. It's 
because DOD didn't do it well. Okay. And so what we've done is, 
is we've moved it from DOD to OPM, and now we're moving it from 
OPM, because they're not doing it well, back to DOD.
    I don't know about you, but I find that less than, I guess 
you might say, the best strategy. Would you agree with that?
    I'm putting you on the spot, but this is a softball answer. 
Don't swing and miss on this one, okay?
    Ms. McNeil. If I knew more I could give you an informed 
answer, but based on the facts that you laid out, I would have 
questions about it.
    Mr. Meadows. All right.
    So, Ms. Weichert, you know that this is a real concern of 
mine and I'm not going to let that stand in the way of becoming 
efficient and effective, but here's what I would ask you to do, 
and I'll close with this.
    Ms. McNeil has outlined a number of areas. My private 
conversations with you have indicated that you're willing to 
work with GAO. Will you say for the record today that you're 
willing to work with GAO to implement a strategy?
    Ms. Weichert. Absolutely.
    Mr. Meadows. And you're willing to work with this committee 
to get us the documents to help us understand what 
administrative power you have, as well as what legislative 
needs are out there. Is that correct?
    Ms. Weichert. Absolutely. And in a lot of cases there are 
things that, you know, I'm prepared to talk about today. A lot 
of the reference material is actually already in the public 
domain, and we referenced it in the original reform proposal.
    Mr. Meadows. All right. And then the last thing is this. I 
would ask both of you to come up with four or five--well, let's 
be definitive--five recommendations to this committee on how we 
can either use shared services or eliminate a duplication of 
service by combining those across agencies that go beyond the 
scope of just what we're here to talk about today.
    And with that, I'll yield back.
    Mr. Connolly. I thank the ranking member.
    Before I call Mr. Sarbanes, the chair would ask unanimous 
consent that the following members be authorized to participate 
in today's hearings, Mr. Don Beyer and Ms. Jennifer Wexton.
    Mr. Meadows. I'm going to withhold a potential objection to 
my good friend, Mr. Beyer. I can't imagine why he would want to 
be here with all his Federal workers.
    Mr. Connolly. And Ms. Wexton the same.
    Hearing and seeing none, the motion is agreed to.
    And I want to thank Mr. Hice and Mr. Grothman. Both agreed 
that we will, for the purpose of rotation, treat Mr. Beyer and 
Ms. Wexton as full members of this committee. And so I thank 
both of my colleagues for their graciousness.
    Mr. Sarbanes.
    Oh, Ms. Norton. I thought you had already gone while I was 
gone.
    Ms. Norton. It's one thing to be left as a caretaker of 
this committee. It's another thing to be skipped over when my 
time comes.
    Mr. Connolly. Excuse me, gentlelady. I believed while we 
were voting you had asked your questions.
    Ms. Norton. No, I wouldn't. I wanted you to be part and 
parcel of all the questions.
    Mr. Connolly. Well, I am now to be edified. I thank the 
gentlelady from the District of Columbia.
    Ms. Norton. I thank you, Mr. Chairman. And I want to 
associate myself not only with your questions, but the 
questions of our ranking member. He used words that I think are 
important, like streamlining services, eliminating of duplicate 
services.
    I once chaired a Federal agency, and I put most of my time 
into saving the government money and saving constituents money 
by streamlining, getting to the point, as it were. So I am not 
opposed to reorganization.
    I do note that we don't do them very often. I think, Ms. 
Weichert, when I talked with you before this committee, you 
told me it's been 70 years, and that may be because the 
Congress is very inept. You see how slowly we do things. But it 
may be because of the difficulty.
    So I note that the Republicans have looked at your vision 
and that on both sides of the aisle, the Republicans and the 
Democrats, thought during the Senate hearing that there was 
insufficient--that the vision document that they had before 
them was insufficient to convince them to provide new legal 
authority, much less funding for this reorganization.
    Now, we have just received this document. It's pretty thin, 
but we still didn't have time to look at it, Ms. Weichert, 
because it was received, according to staff, at 12:29, and 
makes me believe that if we hadn't had this hearing, I'm not 
sure we would have received any underlying document after the 
vision statement. Well, that's very concerning. So I want to 
ask some of the questions that the Senate asked. Now, that was 
July 2018, so we've had a little time since then.
    Ms. Weichert, have you created or shared the documents with 
the Senate, any documents with the Senate, since their June 
2018 hearing about a year ago? And if so, would you provide 
those documents, the documents that they asked for, to this 
subcommittee?
    Ms. Weichert. So thank you for the question.
    The response I gave last July when I spoke to the Senate is 
comparable to what I shared earlier today, which is that the 
source documents for the strategic case for change in the plan, 
I decided to bring them today because it's clear--I think I 
didn't make it clear enough that on page 128 of the original 
report, I was referencing 18 years of GAO reports, I was 
referencing, you know, years of IG reports, data from this 
committee, and many other points of data that were listed in 
there that make a case that shows over time this agency has not 
been able to solve the challenges that both Congress and our 
other governing bodies have asked us to look at.
    Ms. Norton. So we could say that, Ms. Weichert, of any--of 
virtually any agency that comes before us. So if an agency 
wants to do more than receive our criticism, I think they're 
going to ask to do what Chairman Connolly asked you to do in 
March. He asked OPM to provide the subcommittee with 13 
categories of documents so that we could evaluate the 
administration's proposal. We're not going to just say: You 
want to reorganize, go at it.
    Now, have you provided what the subcommittee chair asked 
for on March 22?
    Ms. Weichert. So----
    Ms. Norton. Have you----
    Ms. Weichert. Sorry. Go ahead. Sorry.
    Ms. Norton. Those are the 13 categories. He was very 
specific. Have you provided that information?
    Ms. Weichert. So we provided all of the relevant documents 
that were not already still deliberative and pre-decisional. So 
I think the----
    Ms. Norton. So you have provided the 13 categories of 
documents that Chairman Connolly asked for?
    Ms. Weichert. So not all of the categories are at the 
decision point. So I understand--I mean, you made a great point 
about doing this being very hard.
    We would love to be further along than we actually are. So 
we don't have some of the documents fully done and out of the 
deliberative process into decision. So we've shared what we 
were legally able to do around documents that were no longer in 
the deliberative predecisional phase.
    Ms. Norton. I can understand that. You're trying to do 
something very difficult. And you, yourself, are saying that 
many of the documents that we've asked for, that we'd have to 
rely on, haven't been provided us. That means, Ms. Weichert, 
that zeroing out OPM at the end of this Fiscal Year would just 
be impossible, wouldn't it? You need more time at the very 
least.
    Ms. Weichert. I think that's a fair statement. At the time 
we had issued the budget we had hoped we would more rapidly get 
engagement. And despite, you know, my best efforts to try to 
get on folks' calendar, you know, there just hasn't been the 
opportunity to talk until recently.
    And I would also say I fully intended to come on May 1 and 
there was an all-of-government continuity of operations 
activity that made it impossible for me to attend given my 
other duties.
    But what I have been consistent at since last June is in my 
hope that we get real dialog, because we've analyzed two 
alternatives. We've provided information about a future state 
and we've got reams of paper provided by a host of folks about 
the current state. Those are the two alternatives.
    And the one thing I can state with certainty is there is 
ample data already in the public domain that makes the case 
that the status quo organizational construct cannot meet the 
needs----
    Ms. Norton. Well, again, Ms. Weichert, again, in the public 
domain is ample criticism of virtually every agency. We've got 
to have the basis so that what hasn't been done in 70 years 
will seem reasonable.
    I going to ask Ms. McNeil and Mr. Vint, have you seen any 
of the documents that I've asked Ms. Weichert about, these 13 
categories of documents and the rest? Have either of you?
    Ms. McNeil. My staff recently got two documents today from 
OPM staff. One was, I think, a shortened version of the ``Case 
for Change.'' And then I think we also got a more expanded, 
longer version of that document.
    Ms. Norton. Mr. Vint?
    Mr. Vint. We will have to get back to you. We'll compare 
the chairman's list to the list of documents that we have to 
see if there's a match and----
    Ms. Norton. I would think if you've gotten any of these 
pertinent categories of documents, you'd know it. But please 
get back to the chairman.
    Mr. Chairman, could I ask one more question?
    Mr. Connolly. Yes, ma'am.
    Ms. Norton. I'd like to know if you have provided or will 
provide the subcommittee with analysis--with an analysis of the 
potential effects--that's you, Ms. Weichert--yes, you, Ms. 
Weichert--of the potential effects of this reorganization on 
OPM's work force?
    Ms. Weichert. That is absolutely something that's part of 
our plan. We've been meeting weekly with members of our agency. 
We've been taking into account----
    Ms. Norton. You have been meeting with your----
    Ms. Weichert. With our employees, correct. And every 
opportunity we do that, we actually invite our bargaining unit 
representatives to participate. The president of our local 
bargaining unit actually held a townhall where we took 
questions.
    So we've compiled a host of internal information, and we've 
actually in advance of every major public statement that would 
be released, we've actually had fairly extensive communications 
with employees via our internal website and face-to-face 
townhall-type activities. I've literally been going back 
through that again.
    Ms. Norton. I certainly appreciate that, but we'll be 
hearing from the bargaining agents ourselves. So thank you for 
that cooperation with our bargaining agents.
    Thank you, Mr. Chairman.
    Mr. Connolly. Thank you.
    Mr. Meadows.
    Mr. Meadows. And I'll yield back.
    Ms. Weichert, let me just say, reading the body language of 
people in the audience, what I would ask you to do is maybe 
redouble that outreach in terms of stakeholders. How about 
that?
    I yield back.
    Mr. Connolly. It's not that often we have readings of body 
language in the audience.
    Before I call Mr. Hice, who's been patient, I did want for 
the record, Ms. Norton, amplifying your question about 
compliance, so far we've received 387 total pages of documents, 
300 of which related exclusively to the move of the National 
Background Investigations Bureau from OPM to DOD that Mr. 
Meadows talked about; 30 pages of cover letters for documents 
that OPM provided to the OPM OIG but not the underlying 
documents; 7 pages of emails from Director Weichert to OPM 
staff, none relating to moving OPM's program to GSA or EOP.
    Subsequently, we received a legislative draft bill to 
dismantle OPM and a qualitative business case and value 
proposition for the merger. That was on May 17.
    Documents not provided pursuant to our request: a detailed 
timeline of all reorganization actions proposed in the plan; 
communications guidance and legal analysis pertaining to the 
administration's authority for the OPM reorganization; a list 
of all reorganization actions that can be implemented under 
existing law and a corresponding timeline of start and 
completion dates, as well as a list of all reorganization 
actions that would require changes or amendments to existing 
law by the Congress; documents sufficient to show the status of 
reorganization actions taken to date; detailed plans for GSA's 
management of OPM functions after their merger, including but 
not limited to USAJobs, FedScope, and other public-facing 
operations; and finally, all documents relating to the risks of 
transferring OPM functions to GSA, EOP, and DOD.
    These are in the category of we have not received and there 
was one section where it was blank. Remember we got a blank 
timeline? I think it was the timeline. We got a document that 
said, ``And here's our plan,'' and the following pages were all 
blank. So hopefully we could do better.
    Mr. Hice, the gentleman from Georgia, has been very patient 
and I thank him.
    Mr. Hice. Thank you, Mr. Chairman.
    Director Weichert, thank you for being here, all of our 
witnesses. Appreciate you being here. But, Director, thank you 
for appearing this afternoon and for giving me some time to 
talk about this last week.
    So beginning in October, the National Background 
Investigations Bureau moves to the DOD. We've had some 
discussion on that and some concerns, obviously, that are 
presented with that move. But also the OPM at that time faces 
like a $70 million shortfall. Is that correct?
    Ms. Weichert. That's correct.
    Mr. Hice. And I believe you mentioned earlier something to 
the effect that inaction is not an option, we've got to deal 
with this.
    And, Mr. Chairman, I really believe this does--this whole 
situation affords this committee an opportunity to work 
together in a bipartisan way. And I think we've got to find a 
path forward that both protects the merit system while at the 
same time moves forward on an efficient and effective future.
    One of the things that has shocked me over the past five 
years is really the sorry state of our Federal IT systems. We 
have some systems in several agencies older than my senior 
staff. Goodness, for that matter, we have some older than me at 
the IRS and some systems older than 60.
    And, Mr. Chairman, I'm not quite at the 60 mark, for the 
record. I may be holding on to my fifties like a loose tooth, 
but I'm not quite there yet.
    So, Director Weichert, when you talk about this whole 
merger, one of the issues is with the IT. That really caught my 
attention.
    First of all, how many tech workers does OPM currently 
have?
    Ms. Weichert. So we have less than 200. We have budget for 
300, but we have been unable to fill those roles because we 
can't get people who want to work on this old technology.
    Mr. Hice. So you need how many?
    Ms. Weichert. Well, I don't have a definitive answer. What 
I could say is, coming from the private sector where I've 
worked an entity like Bank of America, half of its work force 
are IT workers. So even though it sounds like it's a financial 
entity, half of its workers are IT workers.
    Mr. Hice. So how many would you need to be--kind of the 
bare minimum what you need? You have 200. What do you need, 
double that? What would you say?
    Ms. Weichert. I would say that we would--if we were to 
fundamentally transform the infrastructure that is as old as 
the IRS infrastructure and scares our CIO and our Deputy CIO 
even more than their time at IRS, you would probably need--I'd 
want to get back and validate with my CIO, but you'd need 
thousands.
    Mr. Hice. Okay. So we need thousands. You have fewer than 
200?
    Ms. Weichert. Correct.
    Mr. Hice. If the IT systems were updated appropriately, 
would the thousands come down?
    Ms. Weichert. Absolutely.
    Mr. Hice. Okay. So with the minimal number of IT workers 
that you have, that's got to have a pretty significant impact 
on the agency as a whole. How would you describe it?
    Ms. Weichert. So I think that is a critical issue. It 
affects every part of what we do, even a seemingly little 
application that we have called the Document Management System. 
It's meant to be an automated way to clear documents dealing 
with merit systems policy changes.
    The entire Office of the Director at OPM is required to 
sign off five or six people. The only person in the Office of 
Director who actually has access to that system is sitting 
behind me, because anyone who has come in the last five years 
to the agency cannot get access to that system. So we manage 
something that is supposed to be automated on a purely manual 
basis.
    Another really sad example is, because of the number of 
legacy systems we have in the retirement space, our hard-
working OPM employees have to toggle between two very old 
systems that run on mainframes, and in between they have to do 
a bunch of manual calculations to deal with errors in those 
systems that we have not been able to automate. And that leads 
to errors that affect our employees. They affect our employees, 
but they affect our annuitants as well.
    So literally every mission we have is hamstrung by old 
technology and we can't even start to look at some of the 
simpler things that might get our FITARA score up, like cloud 
email, because we don't have enough IT professionals with tech 
expertise to even evaluate some of the outsourcing 
opportunities that might get us out of this ditch.
    Mr. Hice. If I can, let's get to the crux of the matter 
here. How does shifting OPM to GSA help correct this situation, 
both with the obvious IT and the economic shortfall involved?
    Ms. Weichert. So several things.
    Chairman Connolly asked me earlier about GSA's mission. GSA 
has some core competencies that might not seem pattern to what 
we need, but their procurement leadership, particularly around 
IT procurement, is something that would help deeply enable us 
to be more efficient in getting the right people working on our 
platforms.
    They are great at hiring IT talent. Part of the reason they 
have a B-plus on their FITARA scorecard is they've done an 
excellent job actually attracting tech talent from all of the 
parts of the country that have deep technical expertise. I want 
to take advantage of that. We've actually signed an interagency 
agreement to have them help us with the work force planning, 
with the talent acquisition in the IT realm.
    They also have a number of authorities and experience 
managing these large financial asset pools and getting the 
authorities to create shared services pools that support them.
    When I had the chart up earlier showing the big trust fund 
capability, that trust fund does not have the ability to tap 
into support and commingle it with other IT support because 
it's supported differently and it's statutorily different. Some 
of the authorities GSA has would help us create that shared 
service connection.
    Mr. Connolly. I want to thank the Acting Director.
    And I know, Mr. Hice, we're going to explore that question 
in great depth over the coming months because that's a bigger 
question than even OPM.
    Thank you so much.
    The gentleman from Maryland, Mr. Sarbanes, is recognized.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Thanks to the panel.
    Ms. Weichert, I don't think it's a good idea to move these 
OPM functions into those three agencies as has been proposed, 
even if it was being done seamlessly, perfectly, with great 
efficiency, because I worry about the functions that OPM owns 
and has within its portfolio being subject to more political 
pressure in ways that were the reason to have kept the agency 
separate over the last four years. So I just preface my 
comments with that.
    But now we're into--I mean, you're off to the races with 
this thing. So then we have to look at whether it can actually 
happen without there being a huge train wreck operationally.
    And I don't really understand if you thought, for example, 
that GSA has expertise, credibility, and other capacities that 
allow it to recruit IT professionals in a way that can help 
focus on deficiencies in the system, and if, in fact, you're in 
some kind of MOU arrangement with them to bring that assistance 
to bear on these legacy systems that are problematic at OPM 
now, why you wouldn't have come from the outset with the 
perspective that there are things that could be done to 
strengthen OPM as OPM and request the kind of resources that 
could make that happen and so forth.
    But I hear you describing a situation which looks hugely 
precarious to me. A moment ago you said something to the effect 
of but for the other duties you have, you could have attended 
more meetings that would have moved the process along more 
efficiently, et cetera. That's not really a good excuse for the 
situation you're in. That just points, again, to a failure to 
recognize the importance of the functions at OPM and provide 
resources and official oversight and filling of positions in a 
way that demonstrates that seriousness.
    Now, to get to the operational elements, among that list of 
critical tasks that you need to see completed to make this 
transition happen, re-badging more than 2,700 current OPM 
employees, providing them with new email accounts, merging 
complex IT networks with legacy systems, financial management 
acquisition systems, implementing changes in reporting 
structures, potentially physically relocating some offices, and 
that's just the tip of the iceberg.
    So are you on track for October 1? You kind of said a 
moment ago that you weren't, but maybe speak to that again.
    Ms. Weichert. So we're definitely not on track for October 
1. We haven't yet had the tollgate where we do the decision to 
say what the new date is because we have a number of 
deliberative activities looking at the legal authorities.
    One of the things I think is most important to share in 
this forum is part of why we don't have a more definitive 
timeline is we really genuinely are hopeful, if not optimistic, 
that we could actually find a legislative solution that was 
bipartisan that could move forward, because we believe that 
would give the greatest level of comfort to our employees and 
would be the most straightforward way forward.
    And so we needed to get a proposal out there, and we have 
been doing other things that are administratively possible, 
like the memoranda of understanding.
    And one of the challenges I have is, until we make the 
decision, I'm advised by counsel, I can't share predecisional 
deliberative documents. I've got to get that process out there. 
But part of how I've been dealing with that back and forth in 
the actual dialog piece is trying to reach out to Members of 
Congress directly, reach out to the national labor unions 
directly, reach out to good government groups directly to have 
dialog and get that discussion going. So that's kind of how 
we've addressed that.
    Mr. Sarbanes. Yes. Well, you did give us something today 
that's labeled predecisional and deliberative with respect to 
savings analysis. So it looks as though, in fact, you are 
beginning to offer up information in this space.
    You look surprised.
    Mr. Meadows. I think that was probably an accident.
    Ms. Weichert. I'm guessing it's no longer predecisional and 
it's labeled wrong.
    Mr. Sarbanes. Okay. Well, in any event, I'm running out of 
time here, but the----
    Ms. Weichert. I'm not surprised that you received something 
from us.
    Mr. Sarbanes. Uh-huh.
    It just sounds like you're proceeding on a wing and a 
prayer here, and that just makes me really, really nervous. And 
you seem to be--I don't mean this pejoratively, although maybe 
it's hard to say it without it sounding that way--you seem in 
these hearings to become kind of quite facile in a kind of 
double-talk about things.
    And that may just represent the very tough position that 
you've been put in by these plans, but you can see why we're 
anxious about it.
    And with that, I yield my time back.
    Mr. Connolly. Mr. Meadows.
    Mr. Meadows. Ms. Weichert, so I'm going to come to you on 
two points. One message you take back to your general counsel, 
we do not recognize the same--and I'm saying it with you and 
this administration, I said it with the previous 
administration, the whole deliberative, predecisional thing, we 
don't recognize. So you can take that to your general counsel. 
That's difficult.
    The other I would offer that if you could make 
arrangements, since you're Acting Director of OPM, I do site 
visits, and I want to come visit OPM before we initiate 
anything.
    And I'll yield back.
    Mr. Connolly. I thank the chair.
    And before I call on the gentleman from Wisconsin, just 
following up on Mr. Sarbanes' question, we received a document 
called: Predecisional and deliberative, GSA/OPM merger, cost 
savings analysis, dated May 2019. We got it at 12:29 today, 31 
minutes before the hearing began.
    And then I was mentioning, on page 19 of the qualitative 
business case and value proposition for the GSA/OPM merger, 
also dated May 2019, the final sentence on page 19 in Appendix 
A says: The timeline below outlines at a high level the 
sequencing and nature of this engagement with Congress and 
other stakeholders and this reorganization effort--and it is 
blank.
    Ms. Weichert. So that's a printer problem.
    Mr. Connolly. A lot of that going around.
    Ms. Weichert. Yes.
    Mr. Connolly. Yes. So----
    Ms. Weichert. Old technology.
    Mr. Connolly. Yes. Well, if your purpose was to demonstrate 
to Congress that your technology is not working well, you have 
succeeded.
    Ms. Weichert. That was not our intent, but I apologize.
    Mr. Connolly. But if your purpose is to demonstrate your 
engagement with Congress in trying to work through a solution 
to a problem, I'm not so sure that has been a success with 
these kinds of documents.
    With that, I call upon the gentleman from Wisconsin and I 
thank him for his patience, Mr. Grothman.
    Mr. Grothman. Thank you very much.
    Ms. Weichert, first of all, thank you for giving me a call 
the other day. I appreciate that.
    The proposed legislation we're talking about here is only 
seven pages long, but the technical execution has to be more 
complex. If we passed the bill as proposed, what else can you 
tell us about how you're going to implement it?
    Ms. Weichert. So the proposal, as I mentioned earlier, 
really takes a page out of how the procurement function is 
structured across government. And I think there's a lot to 
learn from how we do that and how we disseminate that across 
various agencies.
    Tactically speaking, so much of the work we do in 
government, and particularly in the people function, is 
delivered through alternative work arrangements, through remote 
service. The tactical issues around physical space are actually 
something that we've asked GSA for a proposal about how we 
actually reconfigure our space in support of a new way of 
working. So we'd want to see how that proposal came back.
    But our expectation is most of the people who currently 
work for OPM today would continue to reside in the Theodore 
Roosevelt Building here in Washington. They might be moved to 
different floors.
    There's actually, I think, a great case study about how we 
did a reconfiguration of space in that building that included a 
lot of input from employees, so we'd follow that model.
    A lot of the things Congressman Sarbanes mentioned are 
issues that we have on the list, but in order to move forward 
with the planning we have to have a sense of the legal path 
forward.
    As I mentioned earlier, the legal path forward we'd prefer 
would actually be a legislative lift-and-shift type activity. 
And so if we could do it as we've proposed in the legislation, 
it would be a lot simpler, there would be a lot fewer moves. If 
we have to do it piecemeal, the planning gets a lot more 
complex.
    Mr. Grothman. Okay. Thanks.
    Last week OPM gave this committee a document entitled 
``Case for Change: OPM Reorganization.'' It states as follows: 
Absent legislative action, some authorities for the transitions 
will require changes that are administratively burdensome and 
will cause uncertainty for the work force, but the 
administration's ask is for Congress to enact the needed 
technical fix to provide full authority up front to allow for a 
more seamless transition.
    You got that?
    Ms. Weichert. Uh-hum.
    Mr. Grothman. Why is this an administratively burdensome 
process better than the status quo? Or I should say, why is an 
administratively burdensome process better than the status quo?
    Ms. Weichert. So I think what that language is referring to 
is in the last Congress there was actually legislation that 
came out of the Senate that would provide the administration 
with a broader latitude in doing some organizational changes 
and would get us through some of the piecemeal things I talked 
about.
    Because so many of the components of the change are 
affecting different parts of statutory authority, it was 
thought that that overarching reorganization authority would 
help.
    Mr. Grothman. Okay. Now, kind of as a follow-up, I'll ask 
you in general. I think there's just tremendous things he's 
done here. But what has the President done to improve Federal 
employee standards?
    Ms. Weichert. So I think it's a great question. The 
proposal that we put in the President's reform and 
reorganization plan started with the premise that we were 
having a very difficult time actually getting traction on 
addressing some of these core performance management issues.
    In the President's management agenda that was released 
about, you know--I don't know--14 months ago, work force issues 
were critical top three issues, and what we fundamentally 
discovered is all these challenges that I've been talking about 
here today.
    So fundamentally the answer is, we have not been able to do 
many of the things we had hoped to do, in part because the 
agency charged with merit systems principles can't even--you 
know, a lot of the policy changes we'd want to get through 
can't even move forward the way we'd hope, because there's just 
not enough people and not enough time available for them to 
work on them.
    Mr. Grothman. Okay. One final question. It took about a 
year from the last hearing to get the proposed legislative 
text, yet the administration's budget suggested the legislation 
needs to be enacted by October of next year.
    Do you think it's reasonable to expect Congress to enact 
legislation this significant in less than a year and a half? 
That almost sounds kind of funny, doesn't it?
    Ms. Weichert. So I'm a newcomer to D.C. and I am--I've been 
called naive; I've been called an optimist.
    What I would say is, the administration wants to underscore 
the urgency, that we cannot continue to kick the can down the 
road when it comes to these strategic human capital issues.
    GAO has been talking about them for 18 years. This 
committee itself has opined on the challenges OPM faced that 
led to the data breach. And, literally, directors of both 
parties have attempted to address those core issues and have 
been fundamentally unable to do it.
    Even money hasn't solved those problems. So Congress has 
given more money to the agency and in many cases the agency has 
not been able to spend that money.
    So that's kind of where a lot of my urgency comes from. 
Whether it's reasonable, I leave that to you guys, but I think 
the pace needs to be fast.
    Mr. Grothman. There's some famous quote about it took a 
year between D-Day and the end of World War II or something 
like this. So a year and a half, yes, that's a lot of time.
    Thanks.
    Mr. Connolly. Except in legislative time, the gentleman is 
correct. I thank the gentleman.
    The gentleman from California, Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman, and thank you for your 
leadership on this issue. I think many members on this 
committee will look to your counsel in what makes sense for the 
next steps.
    Ms. Weichert, Linda Springer, who worked for President 
George W. Bush said that, quote: A central personnel agency 
creates a firewall between the agency and the political 
personnel at the White House as it relates to personnel 
practices and that the administration's plan creates a 
perception that the firewall is gone.
    Do you think Linda Springer is wrong?
    Ms. Weichert. I'd respectfully disagree with those specific 
observations.
    I would say I'm a little bit surprised by them, because Ms. 
Springer spent time working in an independent but politically 
led organization in the Office of Management and Budget where a 
Senate-confirmed individual led an agency that is inherently 
focused on core management challenges and we have one that does 
Federal financial management, which Ms. Springer was the 
controller of the United States in that position as a political 
appointee. We have an administrator of Federal Procurement 
Policy who's also a political appointee. And what's notably 
absent from the portfolio is someone responsible for the 
personnel components.
    We have a Federal CIO who's Presidentially appointed. And 
fundamentally those individuals do not politicize the core 
management principles. What they do is provide an elevated 
visibility to an administration's ability to drive change that 
the American people want.
    The American people voted in the last election to say 
business as usual in Washington is not doing it, it's not 
achieving what the mission objectives are.
    And so I'd respectfully disagree with that comment.
    Mr. Khanna. There's a couple more questions.
    What are the firewalls that the proposal would have? How 
would you assure the American public, especially with due 
respect with this administration's record of who they've 
appointed, that there won't be politicization of the Civil 
Service?
    Ms. Weichert. So, I mean, I think it's a great question. 
And, again, we've been fairly--or hopefully I've been clear--
it's been actually apparent to me I've been less clear than I 
had hoped I was--that the model for the legislative proposal we 
put out there is the OFPP Act of 1974, which created the 
Administrator of the Office of Federal Procurement Policy as a 
political appointee who had the rulemaking authority across all 
of government.
    And most of the actual regulation work is actually done in 
GSA, in DOD, and in NASA by career civil servants. Most of OFPP 
itself is actually run by career civil servants, and it's led 
by a political appointee, but the rulemaking process is fairly 
well structured.
    And being in OMB itself, where the rulemaking process is 
also governed by a body called OIRA, which is also led by a 
political appointee, it's a very structured process that's 
largely led by career civil servants and subject to a lot of 
congressional rules and statute.
    Mr. Khanna. Ms. Weichert, in a July 2018 hearing you stated 
that you loved the GAO report and it was utterly appropriate to 
apply these standards to the operating model. Obviously, the 
report said, what is the agency trying to achieve? Do you have 
the right resources? Have you developed milestones to track the 
agency? Have you worked with key stakeholders in Congress?
    Do you believe that you have followed GAO's recommendations 
and best practices? And if you haven't, do you have plans to 
help follow what they recommend?
    Ms. Weichert. So I stand by that statement. I do think it 
was a great roadmap. And where we are far enough along, there 
is clear evidence of that. You heard Mr. Vint talk about the 
proposal that was also in the reform and reorganization plan 
around moving all of background investigations to DOD.
    Because that was very clear in terms of the legal path 
forward, we have been able to do the process and provide the 
documentation that supports that. We've been building 
documentation that would align with the GAO report that was 
issued before my last hearing. And, unfortunately, we're just 
not at a point where the decisions had been made that we can 
share that publicly.
    And I heard and understood Mr. Meadows' comments. I will 
take his points back to my GC.
    Mr. Khanna. It's the smart thing to do.
    Ms. Weichert. Yes. But I've been informed that I need to 
appropriately abide by the counsel there.
    Mr. Connolly. I thank the gentlelady. The gentleman's time 
is up.
    The gentleman from Maryland, Mr. Raskin.
    Mr. Raskin. Mr. Chairman, thank you very much.
    Ms. Weichert, first of all, thank you for being in touch 
with me. I totally appreciate that.
    According to the administration's ``Case for Change,'' 
which was distributed at a briefing last week, one of the key 
reasons to dismantle the agency is because of its aging legacy 
IT infrastructure and OPM's, quote, limited capacity in this 
area, which lies outside its core competency and Federal 
mission.
    And you and I talked about that as what you see as a 
compelling reason for doing this. And it may be the case that 
IT is not a part of your central mission, but IT is also not 
part of the central mission of several other agencies, like the 
State Department, the Internal Revenue Service, the Department 
of Veterans Affairs. Those are all agencies which have well 
documented IT problems of their own.
    How is your case distinguished from those? And should they 
be merged with the GSA as well in order to integrate the IT 
function?
    Ms. Weichert. So I love the theoretical construct. I don't 
think it applies at that level.
    What I would say is, in the other examples you cited, IT is 
not getting in the way of the core mission. So diplomacy is not 
harmed. It might be slowed, it might be less efficient, but it 
is not fundamentally harmed.
    Our core mission at OPM is fundamentally harmed. So the 
example I cited about document management service, the fact 
that we theoretically have an IT system that allows us to move 
the business of merit systems policy through our agency and not 
only can we not do that quickly, I, as the Acting Director, 
can't even have any visibility into what's in my pipeline 
because it's all red-and-white striped files.
    Mr. Raskin. Okay. Your IT system, as I understand it, is 
completely different from that of GSA's, and this raises 
questions about whether you can safely and securely migrate all 
of the information in your system into GSA.
    Are you confident, and what's the basis of your confidence, 
that GSA has the capacity needed to store your information? I 
mean, even if you're having a problem, it might not necessarily 
call for this as the solution?
    Ms. Weichert. So the confidence I have is in GSA's IT 
procurement capability and their technical expertise in 
architecture to actually evaluate what needs to be done.
    We have not been able in literally over a decade of IT 
systems challenges to put together an architectural view of 
even what's wrong. I arrived at the agency in the acting 
capacity in October of last year. I asked for both an IT 
architecture diagram and a data architecture diagram. I still 
have not received them, not because people don't want to share 
them with me, but because they don't exist.
    My data base administrator is not a Fed. I outsource that. 
I don't have the technical expertise. And as a result, I 
brought in a CIO and a Deputy CIO with technical expertise who 
came out of U.S. Digital Service, and they'd served at VA and 
they served at IRS doing transformation work.
    So they've been around the block, and their faces get white 
when they talk about this. Like this technology issue, it's not 
because people were technically incompetent, it's actually 
going back to some of these funding issues.
    If I can show my second chart. We have color of money 
issues when it comes to funding IT. And so we've got this $2.4 
trillion in liabilities, so a fund that dwarfs, for example, 
CalPERS as a fund. But administratively, because of structural 
issues, I not only can get--I can't get enough to support the 
retirement mission, but I can't commingle my IT support for 
that enormous mission with anything else, which means my CIO 
only has oversight in 1 in 5 dollars that we spend on IT
    Mr. Raskin. Mr. Vint, let me come to you. Do you have 
concerns about the challenges that OPM would face in 
transitioning all of its systems over to GSA or any other IT 
problems that the agency might encounter if it underwent such a 
reorganization?
    Mr. Vint. Yes, I do have concerns. The very basic concern 
is the fact that we have not been given any analysis of any 
sort, either alternative or quantitative data, that would 
support some of these decisions.
    Mr. Raskin. Then, if I could just come back to you for one 
moment, Ms. Weichert, if the IT systems are as bad as you 
portray them and the agency is not capable of continuing to 
manage effectively the IT systems, is it a good idea to have 
DOD continue using OPM's background investigations systems for 
the next several years and reimburse the agency and the OPM CIO 
for providing IT services for that system?
    Ms. Weichert. So the simple answer is, in the very short-
term we are the solution that the government has. The 
Department of Defense has been building out the NBIS system, 
National Background Investigation System, and it is not yet at 
a place where it can take all the volume, although it's taking 
a lot of new cases.
    And so I do have concerns, and I particularly have concerns 
actually about separating the background investigation code 
base which sits on the same Z12 legacy mainframe systems as the 
retirement capability. I do have concerns about that.
    What we're thinking about to mitigate the risk of that is, 
rather than rip it out, over time we will shift the new cases 
to the new system at DOD and over time essentially wind down 
what's at OPM. That represents the least new risk to the 
overall system.
    Mr. Connolly. I thank the Acting Director.
    Just before I call on Ms. Wexton, the gentlelady from 
Virginia, Mr. Vint, I'm not sure I heard you. You answered Mr. 
Raskin. Would you repeat what you said?
    Mr. Vint. I think the question was, do I have any concerns 
of OPM's IT systems migrating over to GSA? And my answer is, 
yes, I do have concerns in that we have not been given any 
analysis, any alternative analysis, A, that that is the right 
place to go; and, B, any other quantitative data that really 
makes that to be the decision to happen.
    Mr. Connolly. And you are the Acting Inspector General of 
the Office of Personal Management.
    Mr. Vint. Yes.
    Mr. Connolly. Is that correct?
    Mr. Vint. Yes, I am.
    Mr. Connolly. What could go wrong with that?
    Thank you.
    Ms. Wexton.
    Ms. Wexton. Thank you, Mr. Chairman. And I want to thank 
you and the ranking member for allowing us to participate in 
this hearing.
    I just want to be clear, Ms. Weichert. Is it the 
administration's position that this zeroing out of OPM and 
moving the employees and the functions to GSA, DOD, and EOP, is 
it the administration's position that this could be achieved 
entirely through executive action without----
    Ms. Weichert. No, that is not the position.
    Ms. Wexton. Okay. So there's a recognition that Congress 
needs to be involved in this process, correct?
    Ms. Weichert. Yes. That's why we submitted the legislative 
proposal.
    Ms. Wexton. Okay. Very good. Thanks.
    I just want to be sure that I'm clear on the timeline at 
least with regard to the shift or the transition of NBIB to 
DOD. So the NDAA from last year, for Fiscal Year 2018, which 
was enacted in December of last year, required DOD to consult 
with OPM to provide for a phased-in transition of NBIB to DOD. 
Does that sound right?
    Ms. Weichert. Correct.
    Ms. Wexton. Okay. And then OPM hired Deloitte to produce a 
report, to study the issue and produce a report examining that 
move and highlight concerns and things that would have to be 
done in order for that transition to take place. Is that 
correct?
    Ms. Weichert. Correct.
    Ms. Wexton. And they issued that report in September of 
last year. Is that correct? September 2018, something like 
that?
    Ms. Weichert. I'm not sure of the exact date. It was before 
I was Acting Director at OPM.
    Ms. Wexton. Okay. But they issued the report----
    Ms. Weichert. Correct.
    Ms. Wexton [continuing]. which you have since reviewed?
    Ms. Weichert. I have.
    Ms. Wexton. And their recommendation was that these, the 
action items, be completed in 60 days. Is that correct?
    Ms. Weichert. I'm not sure about that conclusion. The 60 
days that I'm most familiar with was in the executive order 
that just came out that requires us to finalize the transition 
path by June the 24th.
    Ms. Wexton. Okay. So the President issued an executive 
order on April 24, 2019. Is that correct?
    Ms. Weichert. Correct.
    Ms. Wexton. And that executive order called for the 
transition to take place--that it should take place from OPM to 
DOD by June 24, 2019?
    Ms. Weichert. No, not to be completed. To map out the 
memorandum of understanding between the two agencies about what 
the transition would look like. And then the legal day one 
would take place after that. And then operations would shift in 
October.
    Ms. Wexton. In October 2019?
    Ms. Weichert. Correct.
    Ms. Wexton. Do you believe that we're on schedule for that 
to happen?
    Ms. Weichert. At this point all of the information points 
to yes.
    Ms. Wexton. Okay. And I believe some of the other members 
asked this question as well, but I'm not really clear on 
whether there is--what justification is there for improvements 
in service or what is the understanding of why that move to DOD 
would be necessary?
    Ms. Weichert. So I was relatively new to government when 
the Armed Services Committee took up the NDAA legislation that 
drove that. I mean, I've heard some of the same things that 
were raised earlier in this conversation, but it was largely, I 
believe, about the background investigation backlog.
    Ms. Wexton. Okay. And I represent northern Virginia, I have 
a lot of Federal contractors, and that's one thing I hear all 
the time, but I don't know that it's any different now than it 
was under DOD. And I actually share Congressman Meadows' 
concern that that would not help alleviate the backlog and 
might, in fact, make it worse.
    So there have been some things recommended that you do. 
Clarifying the budget gap left by the NBIB move, have you done 
that?
    Ms. Weichert. We have clarified the budget gap and it will 
be $70 million.
    Ms. Wexton. And that's where you came up with the $70 
million?
    Ms. Weichert. That came from that Deloitte study, correct.
    Ms. Wexton. And that anticipates that a number of employees 
would be moving to DOD and would no longer be on the OPM 
payroll?
    Ms. Weichert. Correct.
    Ms. Wexton. Now, how about creating a long-term 
consideration of OPM work force needs? Have you done that?
    Ms. Weichert. We have absolutely been looking at how do we 
support the missions. And, again, one of the fundamental 
reasons about which I have been concerned since the NDAA was 
passed is, my initial involvement in this question came not as 
Acting OPM Director, but as the chair of what's called the PAC 
principals meetings that look at the background investigations 
functions. And as soon as it was clear that a huge----
    Ms. Wexton. I'm sorry, because I'm about to run out of 
time.
    Ms. Weichert. Sorry.
    Ms. Wexton. Have you done that?
    Ms. Weichert. So we've been looking----
    Ms. Wexton. You're looking at the process?
    Ms. Weichert. Yes. We've been looking at this implication 
since winter of 2018.
    Ms. Wexton. And how about strengthening internal 
communication and launching change management effort? Same 
thing? In progress?
    Ms. Weichert. In progress and being executed as part of the 
DOD background investigation transition.
    Ms. Wexton. Okay. Thank you.
    Mr. Connolly. I thank the gentlelady.
    Mr. Beyer, the gentleman from Virginia.
    Mr. Beyer. Mr. Chairman, I'd like to begin by thanking you 
for allowing Congresswoman Wexton and me to participate in 
this.
    And thank all of you for coming this afternoon. Very 
interesting.
    Let me confess, after 45 years in business, that I approach 
this reorganization very skeptically. I have found that one of 
the great lessons of management is what managers do when they 
can't figure out what to do is they reorganize.
    And this is classically true with new CEOs. I have seen it 
again and again. They come in and say, okay, for the next few 
years we're going to move everything out to the field, 
decisionmaking. And then they pivot and say, we need to move 
the decisionmaking back to the center. And these cycles go on 
and on.
    And the real challenge is almost always leadership. I had a 
dear friend, Dr. Ron Stupak, who used to lead the Federal 
Executive Institute. All of his doctoral work was on what makes 
effective Federal institutions work. And after a lifetime of 
studying it, he came down to the stunning conclusion that it 
was the leadership. If you have the right person in charge, 
FITARA scores were good, morale was good, places worked great.
    So, Ms. Weichert, this is not an attack on you. I know 
you've only been in charge since October. Please don't take 
this personally. I know these organizational things have been 
bounced around for a while. But why would we move, take an 
organization at OPM that's apparently struggling with 
technology issues and bureaucracy issues, and move it to a 
larger bureaucracy, which inevitably is going to be less 
flexible, less innovative, slower more cumbersome?
    And it's also axiomatic in business that move to the small 
organizations that are flexible and quick and innovative and 
you get--you know, big drug companies don't discover big drugs, 
they buy little companies that discover the new drugs and move 
them in.
    So why would you move to a bigger bureaucracy to solve 
these problems?
    Ms. Weichert. So, first of all, I want to say thank you for 
being here. You are actually my Representative in Congress.
    Mr. Beyer. Oh, thank you very much.
    Ms. Weichert. And I appreciate the question.
    Mr. Connolly. And he meant to say how wonderful you are.
    Ms. Weichert. Because I actually vote in Virginia.
    Mr. Beyer. Oh, thank you. Thank you. I hope you vote every 
time.
    Ms. Weichert. I shouldn't have said that. I shouldn't have 
said that.
    So these documents are full of observations like yours that 
it was the leadership, failure of leadership.
    So I, too, have a business background. I've only been in 
government for less than two years. And I come from an 
industry, financial services, that admittedly is very focused 
on mergers and acquisitions. And frequently the catalyst for 
mergers and acquisitions are balance sheet challenges, 
fundamentally financial challenges.
    So I admittedly come from a place where this is part of how 
you deal with essentially bankruptcy, whether it's operational 
bankruptcy, financial bankruptcy, technology bankruptcy.
    Ms. Weichert. But the other thing that I think is really 
critical is, if we're saying this is a failure of leadership--
and we've been saying this is a failure of leadership for 18 
years--that means we've been through how many OPM leaders, how 
many Members of Congress and GAO and IG community have looked 
at these same issues and pointed out what seem to be obvious 
answers, and people like me have come, I don't believe with any 
ill intent, and been unable to get traction on these issues.
    And then I look at places like GSA, where I'd be the first 
to say, not perfect, a lot of issues, I know this committee 
sees them all up close, but GSA has made more progress on 
modernization than most agencies in government, and they are 
doing it in a way that is modern and collaborates with the 
private sector in a way that I, frankly, think is the only path 
forward.
    So I do admittedly come from a specific place on this, but 
that's my answer.
    Mr. Beyer. Yes. And I would quickly wonder, can we make the 
head of GSA the leadership over at OPM?
    One of the things you talked about was the $23 million a 
year savings. It would be interesting, maybe with the inspector 
general's help, to figure out, what are the costs of 
transitions going to be?
    And then on synergies, I long ago discovered that synergy 
was much easier to spell than to do.
    Ms. Weichert. Yes.
    Mr. Beyer. That it takes years often to sort them out, and 
you end up with the so-called clash of cultures.
    Ms. Weichert. Yes.
    Mr. Beyer. Because even though they're still Federal 
Government, they're still--all these things take a lot of time 
to work through, just as making the leadership--anyway, I'm 
almost out of time.
    But I think the challenge you're going to have ahead is 
convincing the skeptics that just blowing an organization up is 
going to be enough to recreate it in the way that you want it.
    Ms. Weichert. Yes. And I totally appreciate that. And 
blowing it up isn't what we're trying to do. You know, we're 
trying to get it out from under all this burden that's 
essentially--you know, it's like cleaning off a shiny lamp. You 
know, it's just covered with all this old detritus from the 
past that got there through good intention, but is hindering 
the mission today.
    Mr. Beyer. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Connolly. Well, we can only hope that when you get all 
that moss off that lamp and you shine it up and you start 
rubbing it, a genie----
    Ms. Weichert. A genie will grant me my wish.
    Mr. Connolly [continuing]. will appear and solve all this.
    Ms. Weichert. Yes.
    Mr. Connolly. Mr. Beyer, I've got to tell you, as someone 
who's spent 20 years in the private sector as a senior member 
of corporate governance, you couldn't be more right. 
Reorganization was always the answer, and it almost, sadly, 
never worked. I don't think in 20 years, working for several 
companies, I don't think I can think of one where we would all 
go after the fact, you know, ``Thank God we did that, because 
everything's better.''
    And in this case, because we are a service organization, 
OPM, we have to keep in mind the millions of Federal employees 
and retirees who count on this agency for services. And so it 
is a material question, whether GSA is better, it's a very 
material question, and one I know Members of Congress on both 
sides of the aisle take very seriously, because these Federal 
employees are in our care.
    Mr. Meadows.
    Mr. Meadows. Ms. Weichert, since security clearances are a 
big thing for me, as you well know, one of the things, action 
items I would ask for you is to look at taking security 
clearances from DOD and using those resources and people in 
GSA, to perhaps do that. If you would look at that, because I 
think that that's--that may be a more efficient use of our 
resources. But as you're looking at all of this, if you would 
do that, I'd appreciate it.
    I yield back.
    Mr. Connolly. I thank the gentleman.
    And I want to thank this panel for a very engaging and 
substantive dialog.
    Ms. Weichert, I really, as I said, I very much appreciate 
the sincerity and candor you clearly display, and that's 
refreshing and welcome. I think both the ranking member, 
myself, and the members of the subcommittee and the full 
committee stand ready to work with you and with stakeholders in 
trying to work through the issues.
    You've heard a lot of skepticism, and that's very real. 
That doesn't mean we're not willing to be engaged. We are. And 
this let us consider the first big step in the dialog.
    I want to thank our panelists.
    And I want to ask our next panel to get ready and come 
forward. We are going to be joined by J. David Cox, the 
national president of the American Federation of Government 
Employees; Ken Thomas, the national president of NARFE, the 
National Active and Retired Federal Employees Association; and 
Linda Springer, former Director of the Office of Personnel 
Management. If those three would come forward.
    And while we're getting ready, I would ask unanimous 
consent to enter into the record a statement on this matter 
from the Senior Executives Association and from the National 
Treasury Employees Union. Without objection, so ordered.
    Mr. Connolly. As is our practice, we swear in our 
witnesses. And I would ask the three witnesses to stand and 
raise their right hand.
    Do you swear or affirm to tell the truth, the whole truth, 
and nothing but the truth, so help you God?
    Thank you.
    Let the record show that our witnesses have answered in the 
affirmative.
    Each of you has five minutes for a prepared statement. We 
would prefer if you could summarize your statement, and 
obviously your formal statement will be entered into the 
record.
    Mr. Cox, welcome.

 STATEMENT OF J. DAVID COX, SR., NATIONAL PRESIDENT, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Cox. Thank you, Mr. Chairman and Ranking Member, for 
the opportunity to testify today.
    From the get-go, this has been a reckless, ill-conceived, 
and potentially dangerous idea. The administration's so-called 
rationale fell somewhere between inadequate and irrelevant.
    There seems to be no consideration of how abolishing OPM 
will affect the substantive work performed by OPM employees or 
how the merit system will be upheld without a separate OPM to 
enforce nonpolitical hiring, firing, and compensation.
    Late last week, the administration issued a ``Case for 
Change,'' and later, legislative language for new postmortem 
work force regulatory authorities. Their arguments are weak, to 
say the least.
    Upgrading OPM's IT doesn't require ending the agency. 
Improving the balance sheet of the old retirement system, CSRS, 
doesn't require ending the agency. Obtaining funding to replace 
the income stream OPM had for just three short years for the 
background check operation surely doesn't require ending the 
agency.
    The Civil Service is the most underappreciated pillar of 
our democracy. It is far more fragile than many people realize. 
This administration has been trying to undermine it from day 
one by questioning the political loyalties of Federal 
employees, reducing and restricting Federal employee unions and 
due process protections, freezing hiring to keep agencies 
understaffed so they cannot carry out their missions, trying to 
freeze pay and distort the measurement of the pay gap, and 
causing the longest government shutdown on record.
    This week we learned that they have censored government 
websites that facilitate citizens' access to healthcare 
benefits under the ACA.
    When I first heard about the plan to parcel out OPM's 
operation to DOD, GSA, and the Executive Office of the 
President, I was truly baffled. I understood that an 
administration that wants to politicize Federal employment 
would send its policy function to the White House where 
everything is political. But transferring mundane H.R. 
functions to GSA? GSA administers contracts and leases office 
space and fleets of vehicles. How would H.R. fit into such an 
operation?
    When I look back at the President's management agenda, it 
all started to make sense. They want to turn the Federal work 
force into a fleet of leased employees hired for short terms, 
to be used, abused, discarded, and replaced, just like their 
fleets of cars and trucks. How much easier will this be to 
accomplish without an Office of Personnel Management whose very 
mission is to uphold the merit system principles, principles 
that make sure the government hires only people who actually 
have the qualifications necessary to do the job.
    We need OPM to be the cop on the beat, to make sure that 
our Federal work force is totally nonpolitical. We need a 
Federal work force that serves and can carry out the mission of 
agencies no matter who is in the White House.
    Abolishing OPM is the wrong thing to do, but please 
consider that this is an especially inappropriate time to 
consider any kind of executive branch reorganization. No one 
should trust the Trump administration with Civil Service 
policy.
    I sometimes feel that AFGE and this committee are fighting 
a lonely battle to defend the Civil Service and the right of 
Federal employees to union representation.
    The importance of maintaining a nonpartisan, nonpolitical 
Civil Service in our increasingly partisan environment cannot 
be overstated. We cannot allow this administration to abolish 
OPM, the agency that exists primarily to uphold, in a practical 
way, this important foundation of our democracy.
    It appears that the administration intends to proceed with 
some elements of its plan to abolish OPM without congressional 
authorization. As such, we urge you to consider prohibiting the 
use of any appropriated funds, whether directly appropriated to 
OPM or appropriated to any other agency which then reimburses 
OPM for services, from being used by GSA to perform any 
functions currently performed by OPM.
    This concludes my testimony. I'll be glad to take any 
questions. Thank you, Mr. Chairman.
    Mr. Connolly. Thank you, Mr. Cox. And I would just note 
that a number of us have successfully requested that our 
colleagues on the Appropriations Committee freeze the $50 
million appropriation requested for transition for the 
implementation of this program, pending our ability to examine 
the proposals that we did not have. So rest assured about that.
    Mr. Thomas, welcome to the committee.

 STATEMENT OF KEN THOMAS, NATIONAL PRESIDENT, NATIONAL ACTIVE 
           AND RETIRED FEDERAL EMPLOYEES ASSOCIATION

    Mr. Thomas. Thank you, Mr. Chairman, Ranking Member, and 
the members of the subcommittee.
    NARFE's 200,000 members who rely on the programs 
administered by OPM have a strong interest in ensuring OPM's 
mission and responsibilities are carried out effectively. 
NARFE's active employee members go to work every day without 
regard to their own political affiliation or that of any 
President occupying the White House.
    We are disappointed by the lack of information coming from 
the administration regarding the proposed OPM-GSA merger. In 
fact, much of the information shared in advance of this hearing 
came too late for me to address in my written statement. Even 
still, NARFE is not convinced that a merger is the way to 
achieve an efficient OPM.
    OPM has a number of important responsibilities, but it's 
not without its challenges. But that alone does not justify 
merging OPM into GSA.
    At the outset, NARFE is concerned about any effort that 
adds a layer of bureaucracy to an already strained and busy 
agency. We are even more skeptical of the potential adverse 
consequences of delegating OPM's work to a non-independent 
agency.
    OPM's mission is managing and promoting our Nation's 
civilian work force, a work force that would have less 
safeguards against politically motivated personnel decisions 
should this merger come to pass.
    The merger is driven in large part by the budgetary impact 
of the transfer of background investigations from OPM to DOD. 
The administration's failure to prepare for the consequences 
and properly communicate them to Congress is not an adequate 
justification to place OPM's remaining functions in GSA.
    Additionally, Congress appears to have failed to ask the 
important question of what would come of OPM without this 
revenue. If the problem is simply an allocation of resources, 
shouldn't the solution be a request for adequate funds through 
appropriations? If it isn't, how does moving functions from OPM 
into a new branch of GSA change anything?
    The administration further argues that the reorganization 
will better align OPM's resources to its mission of promoting 
an efficient Civil Service. But whether the administration 
likes it or not, administering Federal retirement, healthcare, 
and insurance programs are the key part of OPM's 
responsibilities.
    If the plan is to ensure a greater focus on strategic work, 
the administration needs to explain how OPM's remaining 
functions will receive the attention and resources they 
deserve.
    An organization is only as good as its people, and the 
Federal Government is no exception. Political neutrality is one 
of the basic tenets of Federal employment. Dating back to the 
late 1800's, employment with the Federal Government has been 
based on merit, not political affiliation.
    Previously, political influence in Civil Service hiring and 
firing allowed jobs to be handed out, or to be taken away, 
based on political allegiance, rather than individual 
capabilities. The history of the spoils system shows that this 
leads to corruption and incompetence in the Civil Service.
    As the agency tasked with Federal work force policy, OPM 
was created by Congress as an independent agency. Conversely, 
the GSA Administrator, quote, ``shall perform functions subject 
to the direction and control of the President,'' end of quote. 
One body operates and serves at the pleasure of the President; 
the other does not.
    The overall move of OPM to GSA and the creation of an 
Office of Federal Workforce Policy at OMB threaten the 
independence of OPM as intended by Congress. The new office 
within OMB would provide overall strategic direction and 
coordination of work force policies and regulations. A 
Presidentially appointed administrator would lead that office 
and would not be Senate-confirmed. This raises red flags that 
the move is intended to exert undue political influence on 
personnel decisions.
    Given that strategic human capital management is 
consistently on GAO's high-risk list, clearly we need a 
different governmentwide approach. However, we should not 
sacrifice our nonpolitical, merit-based work force to achieve 
possible improvements in human capital management, and that's 
exactly what this proposal does.
    This is not to say human-capital management isn't in need 
of attention, should it remain with OPM, but that's not what 
we're here to discuss. But the administration has not made a 
convincing case that it would, and such efforts should not be 
done at the expense of a politically neutral, merit-based Civil 
Service.
    NARFE urges Congress to maintain its authority to 
statutorily approve any government agency reorganization.
    Thank you again for my opportunity to express NARFE's 
views.
    Mr. Connolly. Thank you, Mr. Thomas. And I think this may 
be your first congressional testimony in your new capacity?
    Mr. Thomas. It is. Thank you very much.
    Mr. Connolly. Very well done, thank you so much.
    Ms. Springer.

 STATEMENT OF LINDA M. SPRINGER, FORMER DIRECTOR OF THE OFFICE 
                    OF PERSONNEL MANAGEMENT

    Ms. Springer. Good afternoon, Chairman--I think it's still 
afternoon--good afternoon, Chairman Connolly, Ranking Member 
Meadows, and members of the subcommittee. Thank you for the 
opportunity to testify today.
    I'm testifying at this hearing to bring a perspective to 
inform your evaluation of this proposal. I have no other 
motivation and do not stand to gain in any way from the outcome 
of these deliberations.
    The future of OPM and its statutory role are important to 
all its stakeholders, regardless of political party. I do not 
believe this proposal is a Presidential initiative, but rather 
the culmination of years of intent by OMB, spanning 
administrations of both parties, to acquire ownership of 
personnel management from OPM. Accordingly, my willingness to 
testify should be interpreted as a critique of the proposal, 
not the administration as a whole.
    Now, some preliminary observations.
    First, OPM is responsible for employee benefit programs 
whose size rivals or exceeds comparable functions in even the 
largest corporations. Along with all its other functions, there 
is clearly sufficient mass to justify OPM's existence as an 
independent agency.
    Second, a reorganization of this magnitude is characterized 
by extensive analysis of its implications in advance--I want to 
underscore ``in advance''--of the decision on a course of 
action. I know this from experience as a senior executive of a 
company involved in a $1.5 billion merger transaction. In the 
case of the proposed reorganization, it appears this analysis 
has not been fully executed.
    Here's what we've been told about the reorganization plan. 
We've been told the loss of $1.3 billion in revenue to OPM's 
revolving fund, associated with the transfer of the NBIB to 
DOD, threatens the financial viability of OPM. The reality is, 
the net effect, after the corresponding cost reduction, is a 
fraction of this amount.
    We've been told that even if the net amount is as low as 
$70 million, OPM is facing financial disaster. We don't know if 
that figure accurately reflects NBIB cost takeout, but even at 
that level a modest increase in the trust fund expense 
reimbursement ratio could free up the $60 million in 
appropriated funds reported by OPM in their written statement 
to cover most of the shortfall and reduce it to a manageable 
level.
    Since no alternative solutions are offered, we're being 
told, in effect, that absent this merger, the Federal 
Government can't afford to provide its work force with an 
independent central personnel management agency, and that's an 
embarrassment.
    We're told the new personnel services in GSA will be on par 
with GSA's Public Building Service and Federal Acquisition 
Service. What this says is the authors of the plan equate 
Federal civil servants with buildings and contracts.
    We've been told there's great synergy between OPM's Human 
Resources Solutions and GSA services. The truth is, they are 
fundamentally different. HRS services are predominantly 
specialized, consultative, and advisory. GSA's human capital 
portfolio is primarily in commodity and administrative 
services.
    What we are not told is that Congress provided a mechanism 
for agencies like OPM to address information technology 
challenges, the Modernizing Government Technology Act. OPM is 
not alone in its technology challenges or the MGTA wouldn't 
have been necessary. MGTA is designed exactly for agencies like 
OPM.
    The administration's legislative proposal transfers OPM's 
personnel policy leadership to a new OMB Office of Federal 
Workforce Policy. We have been told this will elevate work 
force policy. The reality is, the proposal would bury it in the 
management section of OMB.
    We are told that the leader of the new OMB Workforce Policy 
office does not need to be Senate-confirmed. What this shows is 
the autonomy and lack of accountability that OMB desires in its 
ownership of personnel policy.
    We are led to believe that a provision to delegate 
rulemaking to GSA is a safeguard. The truth is, that provision 
only creates an option to delegate. Any White House could 
easily elect to retain full ownership for personnel policy.
    The reality is the reform proposal places Federal personnel 
policy setting right back into place where the spoils and 
patronage system had taken hold. At best, the optics are 
terrible. But even worse is the opportunity it creates for 
enabling a return to unfair personnel practices.
    The future for OPM should not be the status quo. However, 
it should be revitalized, not eliminated, carved up, or 
subsumed. Addressing OPM's issues is achievable under a reform 
plan that is focused on making OPM smart, not obsolete.
    The authors of the Civil Service Reform Act understood the 
Federal Government's personnel management function required an 
independent central agency. This is not a false equivalency 
between OPM and merit system principles, nor is it a partisan 
issue.
    The fundamental question is whether the Federal work force 
deserves that same service and protection today. This Congress 
can reaffirm that it does by putting an end to this misguided 
reorganization plan.
    Thank you, and I look forward to your questions.
    Mr. Connolly. Thank you, Ms. Springer. Appreciate it.
    The chair calls on the gentlelady from the District of 
Columbia, Ms. Norton, for her five minutes of questions.
    Ms. Norton. Thank you very much, Mr. Chairman.
    And I certainly thank all of you who have come to testify. 
Employment engagement is what I'm concerned about, and you've 
given us some engagement today.
    I don't want to sound like I'm some kind of conservative. I 
don't regard myself as a conservative on reorganizations. When 
I chaired the EEOC, the first thing I had to do was reorganize 
the agency. So it ill behooves me to say reorganization won't 
do any good.
    But in that case, the EEOC had become so dysfunctional it 
couldn't serve the public. It had such a vast backlog that it 
couldn't receive complaints and get them solved in a coherent 
fashion.
    This is an agency that serves other agencies, and therefore 
I think it is with some caution that the committee is looking 
at reorganization as the be-all, end-all of the problem, 
because the research does not tell us that.
    And what scares me is the research, because the research 
says--and I think my colleague from Virginia made some 
reference in his own experience--that sometimes 
reorganizations, often rather, cause greater distress and 
anxiety than layoffs themselves cause.
    Take an organization, throw it up in the air, hope it all 
lands. You've thought it through. Happens to be real human 
beings involved. And we're not sure why. Sometimes it's because 
the objectives are not stated clearly. Sometimes we do things 
wrong and don't take into account sufficiently the human 
factor.
    Now, we heard testimony that employees had been engaged in 
what the OPM Director was about. So I've got to ask, Mr. Cox 
and Mr. Thomas, whether you can summarize employee engagement 
that you have seen during this period of reorganization.
    Mr. Cox. Congresswoman, I was called about--or sent an e-
mail about six weeks ago by the Acting Director, and she wanted 
to arrange a call with me on a Sunday afternoon. Spent a few 
minutes on the telephone to tell me that the budget was going 
to come out from the President, and that part of this 
reorganization was going to be in it, and she wanted to make me 
aware of it. She didn't ask for any input or anything of that 
nature.
    The employees at OPM, they had a townhall meeting around 
the 1st of May to meet with the members that we represent. And 
from that meeting, I believe at that point, the Acting Director 
then started trying to interact with the local union. And you 
can probably see body language, whether they will shake their 
heads or not back there.
    Ms. Norton. But that was your town meeting, you called that 
town meeting?
    Mr. Cox. That was the locals town meeting. They called the 
meeting. She did not call the meeting, Congresswoman.
    Ms. Norton. So the extent of the leadership of your union, 
which is the largest Civil Service union, was this phone call?
    Mr. Cox. The phone call to tell me: This is what we're 
going to do. And it was a very short call. And any time I asked 
questions, it was: Well, we haven't worked those details out 
yet.
    Ms. Norton. I commend her for coming to your town meeting. 
I do think that was required of you calling it.
    Mr. Thomas, has she been in touch with you with respect to 
this reorganization?
    Mr. Thomas. Congresswoman Norton, we were just contacted 
today.
    Ms. Norton. And what form did that contact take?
    Mr. Thomas. It was contact via telephone to see how we were 
going to or what we were going to discuss in this particular 
hearing.
    Ms. Norton. That's kind of like what we received, Mr. 
Chairman, at 12:30--a little after 12:30--which was some 
greater content about this reorganization.
    Can either of you compare what you know at this point about 
this reorganization with any past reorganizations you have 
done? And we know there haven't been many. They're difficult. 
They're difficult to even embark upon.
    But do you know of any other reorganizations of an agency 
by prior agency administrations? And can you give us any 
feedback on how that process has worked in the past?
    Mr. Cox. And I don't know that I would call it a total 
reorganization of putting agencies together. My experience in 
the VA many years ago was the integration of several hospitals, 
because they were located close by, merging those facilities. 
And that went on for years. There was a great deal of 
involvement with employees, with the union that represented the 
employees, with the veterans organizations, with the 
communities, and as well as with Congress. And so there was a 
lot of involvement, and it took a lot of doing just to, like, 
merge two hospitals.
    Ms. Norton. And that wasn't an entire agency.
    Mr. Cox. No, it wasn't an entire agency.
    Ms. Norton. It was some hospitals.
    Mr. Thomas, do you have any?
    Mr. Thomas. Congresswoman Norton, back when I was a Federal 
employee, which seems like years ago, my organization started 
out as the Department of Health, Education, and Welfare. It 
then became the Department of Health and Human Services and the 
U.S. Department of Education.
    The split was made. I was fortunate enough to go with the 
U.S. Department of Education and continued with Vocational 
Rehabilitation Services Administration.
    Things worked smoothly. This was years and years and years 
ago. What we did know, though, that we didn't have all the 
components that were necessary to provide services.
    One of the components that we finally started receiving--
and that's primarily because we were starting to get questions, 
or questions were coming in from Congress, and it was taking us 
weeks to prepare some kind of response back. And as a result we 
finally in the 1990's started automating those two rather large 
departments.
    Mr. Connolly. I thank the gentleman and thank the----
    Ms. Norton. Mr. Chairman, could I ask that OPM provide us 
with details of that reorganization?
    Mr. Connolly. Certainly.
    Ms. Norton. Because those are two agencies that now exist, 
and it would at least give us some precedent to know how this 
has worked before and what it would take.
    Thank you very much, Mr. Thomas.
    Mr. Connolly. I thank the Congresswoman. And she makes a 
very good point. Although I would say that we don't really have 
an analog here, because what we're doing here is blowing up an 
agency so that it doesn't exist anymore, and we're giving part 
to GSA, part to DOD, part to OMB. And I'm not sure we have a 
precedent for that, and I'm not sure we want to create a 
precedent either. But the gentlewoman's point is very well 
taken.
    The Ranking Member.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Thomas, thank you for your opening testimony, and 
welcome to your first hearing.
    And so as you look at this, I guess there's two goals I 
would assume that you would be supporting. You would be okay 
with a reorganization plan that was well thought out as long as 
it did not politicize the hiring process and as long as it did 
not cut work force. Is that correct?
    Mr. Thomas. That's part of it, yes.
    Mr. Meadows. All right. What are your other concerns?
    Mr. Thomas. The other concerns are, can we believe what is 
being said? So, like you, I'm a little bit skeptical also.
    Mr. Meadows. Well, so let's be--both you and Ms. Springer 
talked about this.
    Mr. Thomas. Right.
    Mr. Meadows. And it was about the security clearance. Let 
me just tell you, that ship has sailed, sadly, and, quite 
frankly, I think the chairman and I both fought against that. 
That is actually a legislative thing. That's not part of this 
reorganization.
    Mr. Thomas. Exactly.
    Mr. Meadows. And, candidly, it's exacerbating our problem.
    Mr. Thomas. Exactly.
    Mr. Meadows. Because we've got a financial, as Ms. Springer 
was pointing out, whether it's this administration, the 
previous administration, or under Mr. Bush, when she was 
involved with it, that's when originally, I believe, it was 
taken--in 2005, Ms. Springer, wasn't it taken from DOD to OPM?
    Ms. Springer. That's correct.
    Mr. Meadows. And why was that?
    Ms. Springer. I was not at OPM at that time. But I would 
imagine----
    Mr. Meadows. Because DOD did it so well.
    Ms. Springer. Well, I would imagine it's because DOD wanted 
to unload the backlog.
    Mr. Meadows. Okay. So here is--and just so--listen, 
typically, Mr. Thomas, Republican Members are not seen as the 
poster child of--you know, you all don't send love letters on a 
regular basis.
    I will say your government relations person here is someone 
who I respect, and, candidly, we go back on other issues, as it 
relates to--but only because the gentleman to my left--and 
everybody is to my left--but the gentleman to my left has given 
me a full appreciation for what you do. And certainly I've come 
to understand that in a better way.
    Here's what I would need from both of you, though. Here's 
my concern. When we look at reorganizations--and, quite 
frankly, I don't think we've ever done one, in the Federal 
Government, just to be blunt. I don't know that when you look 
at Civil Service reform, that it's ripe for reorganizations as 
a private sector would look at that.
    But here's what I would ask, Mr. Thomas and Ms. Springer, 
if you would do, is, assuming that we wanted to be more 
effective and efficient, if you could look at ways to keep the 
politics out of it, make sure that our Federal work force is 
there, and proper alignment.
    I'm one that I do not believe that we need to put 
everything in DOD. You know, it will end up that we have one 
appropriations, and it will be DOD, and everything else will be 
shared services from that. And they're not the epitome of 
efficiency.
    Mr. Thomas. Exactly.
    Mr. Meadows. And you're hearing that from a Republican 
Member of Congress. And I'm sure there's cards and letters 
already coming.
    But are the two of you willing to do that?
    Mr. Thomas. Absolutely.
    Mr. Meadows. Thank you both.
    The townhall, Mr. Cox, that you mentioned, that happened in 
May? Is that correct?
    And by the way, I read your body language pretty good over 
there earlier.
    So that was in May, the first part of May?
    Mr. Cox. And it was called by our local representative.
    Mr. Meadows. No, I get that. That's why I asked her. I 
could see the whispering going back and forth. They shouldn't 
play poker.
    So in doing that, would you say that this reorganization is 
probably one of the biggest concerns that you have right now as 
a union.
    Mr. Cox. That, along with many other things, yes, sir.
    Mr. Meadows. Well, does it rank as one of the top five?
    Mr. Cox. It ranks as one of the top five, yes, sir.
    Mr. Meadows. All right. So when you were at the townhall, 
what were the concerns that you heard in that townhall?
    Mr. Cox. I was not in the townhall, sir. Remember I said--
--
    Mr. Meadows. Why were you not in the townhall?
    Mr. Cox. Because I am the national president over the 
entire----
    Mr. Meadows. But, Mr. Cox, you just said it's one of the 
most important things that are out there, top five, and you 
didn't show up to a townhall to hear from folks? Why would you 
not do that?
    Mr. Cox. Because I have local representatives, that they 
handle that.
    Mr. Meadows. But then why are you here testifying today? 
Why aren't they testifying?
    Mr. Cox. Congressman Meadows, you and I go back a long 
time.
    Mr. Meadows. We do.
    Mr. Cox. And if you'll reach over to the guy to your left, 
he'll tell you that I have good ideas also.
    Mr. Meadows. I didn't say you didn't have good ideas. I'm 
just asking, if it was a priority for them to have a townhall 
and it's one of the most important things, why didn't you show 
up?
    Mr. Cox. And they had----
    Mr. Meadows. And how you can testify on the veracity of 
their townhall here today if you weren't there?
    Mr. Cox. I have communications inside of my union, that 
they--and we have a structure of a national vice president----
    Mr. Meadows. Mr. Cox, let me just be blunt. The reason why 
you get the hostility from me right now is because I want you 
to be as purposeful about making sure that we're efficient and 
effective and maybe dispense with some of the rhetoric that is 
political. It is not neutral.
    And, Mr. Thomas, I know that very few of his members 
support on my side of the aisle. I get that. And yet, Mr. Cox, 
you let it shine through very clearly. And what happens is, it 
makes me less than cooperative when it comes to that and 
discount your testimony.
    And I'll yield back.
    Mr. Connolly. I would just say to my friend, I go to a lot 
of NARFE meetings. You'd be amazed at how many Republican 
Members of NARFE there are.
    Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    And, Mr. Thomas, I want to thank you for locating NARFE in 
my congressional district. In fact, in my little town.
    Mr. Thomas. Thank you very much, Congressman.
    Mr. Beyer. We're proud to have you there--you and Amazon.
    Mr. Thomas. And my former, Volvo.
    Mr. Beyer. Oh, good, good. Well, we have more.
    And, Mr. Cox, you said that, in your testimony, that this 
reminds you of GSA's leasing practices with fleets of 
automobiles. I'm assuming that you're positive on leasing 
automobiles, right?
    Mr. Cox. Yes, sir, with you, I definitely am.
    Mr. Beyer. That's great.
    Not to be too political, but, Mr. Cox, I'm going to quote a 
bunch of phrases from your testimony. Eliminating the right of 
Federal employees to obtain union representation they voted and 
paid for. Restrict collective bargaining. Freeze Federal pay. 
Distort the measurement of the gap between Federal and private 
pay sector. Cut Federal retirement benefits. Cut Federal health 
insurance benefits. Curtailing union and due process rights. 
Politicizing the agencies through intimidation. Questioning 
loyalties. Quashing scientific findings. Forbidding Federal 
employees from using certain words connected to scientific 
matters. Et cetera.
    Does this suggest that you have a great deal of trust in 
this administration?
    Mr. Cox. No, sir, I do not. And I believe that what you 
just read certainly clarifies why I do not and why that I 
sometimes have a partisan tone to my answers and my testimony.
    Mr. Beyer. Well, it certainly think that it provides the 
overall context about why you may be suspicious of this 
attempt, because there's so many other things that seem to be 
blatantly hostile to our Federal employees. So I very much 
appreciate that.
    Ms. Springer, I want to thank you for providing a wonderful 
history of the evolution of the Office of Personnel Management. 
I did not know all those different things. It was terrific.
    One of the things you pointed out was that a lot of this 
leadership issue comes from frequent vacancies in OPM top 
leadership positions. Is this something that could or should be 
fixed by having five-year appointments, 10-year appointments, 
like the FBI has, something that takes the leadership away from 
the churn that you typically get with Presidential 
appointments?
    Ms. Springer. I think it's worth exploring. I don't know 
about 10, but I think certainly five. That notion would be 
consistent with the idea of an independent agency. If you look 
at other independent agencies, they have term appointments that 
would span across multiple administrations.
    Mr. Beyer. You also said--I mean, you made the very good 
point that they could have placed OPM in the Executive Office 
of the President and chose not to, that they wanted it to be an 
independent establishment in the executive branch. You even 
pointed out that President Carter had moved certain personnel 
management functions from OMB over to OPM.
    But you also say, why do they call it an office, as many 
huge functions that they have? Should it be renamed? Should it 
be a bureau or a department or a----
    Ms. Springer. Well, I wouldn't call it a department.
    There was a question that we had when I first became 
Director about that, and we do think that ``office'' sounds 
smaller than the scope of responsibilities. But the reality 
was, we decided to focus more on the responsibilities than the 
name itself. But that's one thing I would change about the 
CSRA.
    Mr. Beyer. Yes. I mean, names do tell you something about 
things.
    Ms. Springer. Yes, that's true.
    Mr. Beyer. And, Mr. Thomas, the point's been made a number 
of times that you don't necessarily have to move OPM over to 
GSA or anywhere else to fix the technology problem. In fact, I 
think we learned from Ms. Weichert that they're not even going 
to move buildings. They're going to stay in the same building, 
the Theodore Roosevelt Building.
    If OPM can use GSA's IT system anywhere, why can't they 
just use it where they are right now?
    Mr. Thomas. It would probably--my guess would be turfing 
issues.
    Mr. Beyer. But probably not technical issues?
    Mr. Thomas. But not technical issues, no.
    There are certain things--when you look at OPM, you're 
looking at things that, actually, there are certain components 
of OPM that actually work and work well. However, the IT 
modernization issue is clearly their Achilles' heel, and that's 
something that has to be dealt with.
    Sharing between different government agencies, I see no 
issue there. I mean, it's a question of their working out any 
turfing issues if there are any.
    Mr. Beyer. In fact, I think it comes from Mr. Cox's 
testimony, written testimony, that there's all kinds of shared 
services that are being pushed across Federal Government right 
now. But if you look and say, the weak point is IT, you look at 
somebody who does IT well and get them to help you rather 
than----
    Mr. Thomas. That is correct.
    Mr. Beyer. Mr. Chair, I yield back.
    Mr. Connolly. I thank the gentleman. And I thank, Mr. 
Beyer, obviously your commitment to Federal employees and your 
constituents who are Federal employees, for taking the time out 
of your schedule to join us in this hearing, in this 
subcommittee. So we thank you.
    Mr. Beyer. Mr. Chairman, this reminds me of your days as 
chairman of the Fairfax County Board. The meetings would go 
till midnight.
    Mr. Connolly. Yes, and sometimes longer.
    Mr. Meadows. And, Mr. Chairman, with your permission, I'd 
like to also comment.
    Mr. Connolly. Yes, sir.
    Mr. Meadows. Obviously, I have a relationship with you and 
Mr. Beyer. And one thing that is very critical for your 
constituents to understand, there are no better advocates for 
the work force, the Federal work force, than the two of you, 
and I want to say that so that they hear it from the other side 
of the aisle so they know how sincere your advocacy is.
    Mr. Connolly. I thank the gentleman. As always, gracious.
    Ms. Springer, just to remind everybody about your 
background. So you're a liberal Democrat who has served in 
every Democratic administration since time immemorial. You 
clearly have a bone to pick with the Trump administration. And 
we should weigh carefully, from a partisan point of view, what 
you've got to say.
    Mr. Meadows. Now it's your turn for a softball, right?
    Mr. Connolly. Is that correct, Ms. Springer? Have I got 
that wrong?
    Ms. Springer. Yes, just a little.
    Mr. Connolly. Would you tell us a little bit about your 
professional background and which administration you served in?
    Ms. Springer. Yes. After 9/11, I ended my 25 years in the 
private sector because I wanted to do public service. And I 
came to the Bush Administration and started at OMB and had the 
opportunity to lead their policy office for the Office of 
Federal Financial Management. And I intended to go back to 
Pennsylvania after that, do a period of service and then go 
back.
    I ended up staying when I had the opportunity to go to be 
Director of OPM--and that was in the second term of the Bush 
Administration--and then left, obviously, in 1908, but then 
came back after the transition in this administration, for a 
few months early in the administration, to help launch some of 
the management initiatives.
    Mr. Connolly. So you served in the Bush Administration as 
the Director of OPM?
    Ms. Springer. Yes.
    Mr. Connolly. So you had Ms. Weichert's job, except you 
were confirmed?
    Ms. Springer. Yes.
    Mr. Connolly. And you came back and helped in the 
transition in the Trump administration in that same----
    Ms. Springer. Yes. Although it was--my focus was not so 
much on OPM but on the whole management agenda initiatives.
    Mr. Connolly. Right. So you bring a perspective of 
experience looking at the good, the bad, and the ugly of OPM.
    Ms. Springer. Yes.
    Mr. Connolly. And let me ask you this. You also served in 
the private sector.
    Ms. Springer. That's right.
    Mr. Connolly. And let me ask, is there a difference in, 
say, reorganization and merger of departments and functions 
between the private and the public sector based on your 
experience? Should we approach them differently or are they, 
frankly, the same?
    Ms. Springer. I think they're more the same than different. 
I think you look at a lot of the same considerations, whether 
it's people, systems, finance, legal.
    And by the way, you look at both entities. We haven't heard 
a lot about this today, but we should be looking at GSA as much 
as we're looking at OPM. What does this do to GSA? What does it 
do to their ability to deal with their challenges, let alone 
take on an entirely new set of responsibilities?
    Mr. Connolly. Mr. Beyer made a point about, in the private 
sector analog, trying to merge corporate cultures. Not an easy 
thing.
    I worked for a company that went through a major merger. We 
acquired another company with similar missions. Totally 
different culture, however. And, I mean, probably to this day 
it's still not resolved. And in little and huge ways, it made a 
difference in being able to try to all get on the same team.
    And I completely agree with Mr. Beyer when he said it's 
easier to spell synergy than do it. And that certainly was my 
experience in the private sector, despite the best of 
intentions by everybody.
    Don't we have a similar situation in the public sector? The 
GSA culture, DOD culture, OMB culture are different than OPM's 
culture over the years.
    Ms. Springer. Yes, I agree.
    Mr. Connolly. And, therefore, grafting one onto the other 
is going to be a challenge, not necessarily insurmountable. But 
nor should we overlook, as you said, the challenges at GSA and 
the burden this is going to add to them, with a mission they're 
not familiar with.
    Ms. Springer. I agree.
    Mr. Connolly. What types of documents and information would 
you expect on a corporate board of a business involved in a 
private sector merger? What would be the normal things that 
would have to be provided to that corporate board to justify a 
merger?
    Ms. Springer. Well, you would be looking at a full picture 
of both organizations. You would need to understand their 
organizational design. You would need to understand not only 
the current state, but also the future state. You would be 
looking at alternatives.
    You would be looking at things that you've asked for in 
your previous letters to the administration, about cost-benefit 
analysis, financial implications, an inventory of statutory and 
regulatory impact, and how those impact both GSA and OPM and 
any other entities. Looking at labor management agreements. 
Looking at different integration risks and challenges, and then 
how to mitigate those. You'd be looking at detailed migration 
plans and communication plans. And those are just some 
examples.
    I would just add that--you haven't asked this yet, but I'll 
answer a question that you may be thinking. If I were on a 
board and I had only gotten what you've gotten so far, I'd 
probably fire you.
    Mr. Connolly. Well, you anticipated my question.
    Would it also be unusual, from a corporate board point of 
view, to receive only one option from a CEO? In other words, is 
it not common that a CEO would at least present the board: Here 
are the options, and here's my recommendation because I think 
that's the optimum one?
    Ms. Springer. Well, of course, that's the case. And a board 
member wouldn't be doing their own job if they didn't ask for 
those things.
    Mr. Connolly. And in this case, are there any other options 
that have been presented, do you know?
    Ms. Springer. I haven't seen anything revealed publicly. 
I'm retired, so I only see what goes out in the public.
    Mr. Connolly. Right. And you listed and I listed and the IG 
listed before a list of things one might expect or we have 
asked for, almost none of which have been provided. And as we 
pointed out, as Ms. Norton pointed out, we received one 
document today dated 12/29, just coincidentally the day of the 
hearing, one and a half hours before it.
    In another case we got a document that says: And here's the 
timeline. And there is none. It's blank.
    All of which would suggest, maybe, that this was rushed, 
because you had an action-forcing event, a hearing, and we 
didn't have any of those documents. We made a decision a priori 
to get rid of OPM, and we're now scrambling to find a rationale 
and justification for it. It is very rushed.
    And one asks the question rhetorically, when we're talking 
about millions of Federal employees and retirees, we're talking 
about huge data bases, we're talking about a massive healthcare 
system--or health insurance system--we're talking about 
increasingly massive retirement applications given the age 
demographics of the work force, what could go wrong with 
rushing it?
    And I congratulate you on your testimony, particularly, and 
both gentlemen represent their members very ably and very 
articulate. But given your experience, I think it's 
particularly critical.
    And it reminds us all, as does my ranking member, this is 
not--we're not going to approach this on a partisan basis. This 
is about the merits of what's in front of us. And I don't think 
Congress, in my own opinion, can, frankly, in any good 
conscience approve this, or maybe even more actively, not 
object to it, given the paucity of justification and given the 
potential consequences on our civil servants, who deserve 
better.
    So I thank you, Ms. Springer, for coming forward. I know it 
can't be easy. But I think all of us on a bipartisan basis 
benefit from all of your testimony.
    Ms. Springer. Thank you, Mr. Chairman.
    Mr. Connolly. I thank you all for being here today.
    Anything else, Mr. Meadows?
    The committee members can submit additional questions for 
the record, and we will make sure, through the chair, that they 
are delivered to the appropriate recipient.
    This hearing is adjourned.
    [Whereupon, at 5:24 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
